<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2008

                              ----------                              


                         WEDNESDAY, MAY 2, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 5 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senator Durbin.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF ERIC T. WASHINGTON, CHIEF JUDGE, DISTRICT 
            OF COLUMBIA COURT OF APPEALS

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good afternoon. The hearing will come to 
order and my apologies for the delayed start.
    Coincidentally this hearing was scheduled for the very 
moment that I was calling an amendment on the floor. The bad 
news is you had to wait patiently for over an hour and the good 
news is the amendment passed.
    So, I'm happy to be with you and welcome you to the session 
before the Financial Services and General Government 
Appropriations Subcommittee.
    Our focus today is on the budget request for four federally 
funded agencies which deliver vital services within the 
District of Columbia. I welcome my Senate colleagues who may 
join me now that the rollcall has been completed.
    Appearing before the subcommittee this afternoon is an 
extraordinary panel of key officials, who devote their careers 
to fairly administering justice, protecting public safety, and 
improving the livelihood and potential for the citizens of our 
Nation's capital.
    As I looked over their resumes, it's significant that 
collectively these leaders have delivered a century of 
distinguished public service and from my vantage point, appear 
to show no signs of fatigue or waning commitment. So, I thank 
you for that.
    I welcome the Honorable Eric T. Washington, Chief Judge of 
the D.C. Court of Appeals; the Honorable Rufus G. King III, 
Chief Judge of the District of Columbia Superior Court; Paul 
Quander, Jr., Director of the Court Services and Offender 
Supervision Agency (CSOSA); Avis Buchanan, Director of the 
Public Defender Service (PDS) of the District of Columbia; and 
Deborah Gist, State Education Officer, who administers the 
Resident Tuition Assistant Grant Program for the District of 
Columbia government. Thank you for joining us.
    I've had the privilege and pleasure of working on a host of 
important and successful legislative initiatives for the 
benefit of the District as part of my Senate responsibilities--
having worn the hats of both authorizer and appropriator over 
the years. Today provides an opportunity to continue that work.
    The combined funding request for the operations of the 
agencies appearing before the subcommittee today constitute 
$515.5 million--86 percent of the President's total request of 
$597.6 million in Federal payments to fund a dozen diverse 
programs in the District of Columbia.
    Federal appropriations provide the sole financial resources 
for, not simply a contribution to, the operations of these four 
agencies. Three of the entities are wholly independent of any 
local control or oversight as a result of the Revitalization 
Act of 1997, which relieved the District of certain state level 
responsibilities and restructured several criminal justice 
functions.
    So, it's prudent to assess how effectively and efficiently 
these particular agencies are currently utilizing and managing 
Federal resources as we look forward to deliberating the needs 
for the ensuing year.
    For the District of Columbia Courts, the President's budget 
recommends a total of $213.9 million, a decrease of $2.9 
million from last year's appropriation. The President's 
recommendation for court operations is $24.5 million--18 
percent increase above the last fiscal year enacted level of 
$136.8 million. The President's proposed level of $52.5 million 
for capital improvements is $27.4 million below fiscal year 
2007.
    For CSOSA, the President requests $190.3 million. This is 
$10.7 million, or 6 percent, above the fiscal year 2007 enacted 
level of $179.6 million.
    Under the full year continuing resolution, Congress 
approved an additional $8.9 million to forestall critical 
setbacks CSOSA faced if forced to operate at the fiscal year 
2006 level. For the Public Defender Service, the President 
seeks $32.71 million to be provided as a direct appropriation. 
This is 5 percent above the fiscal year 2007 level.
    For the District of Columbia Tuition Assistance Grant 
Program, the President seeks $35.1 million, an increase of $2.2 
million, or 7 percent, above the fiscal year 2007 enacted 
level.
    I look forward to discussing these budget proposals in 
greater detail. At this point, we will take the testimony of 
those witnesses who appear before us.
    In the interest of providing ample opportunity to discuss 
your proposals with questions and answers, I hope you can limit 
your oral presentations to around 5 minutes. Your entire formal 
statement will be submitted for the record. Judge Washington, 
we will begin with you. Thank you for being here.
    Judge Washington. Thank you, Mr. Chairman. Good afternoon.
    Senator Durbin. There's a button on your microphone. There 
you go.
    Judge Washington. I hope that I've done this correctly.
    Again, good afternoon, Mr. Chairman, thank you for this 
opportunity to discuss the D.C. Courts' fiscal year 2008 budget 
request.
    As you noted, my name is Eric T. Washington and I'm here in 
my capacity as the Chief Judge of the District of Columbia 
Court of Appeals and Chair of the Joint Committee on Judicial 
Administration in the District of Columbia, the policy making 
body for the District of Columbia Courts.
    With me this afternoon are Chief Judge Rufus King III of 
the D.C. Superior Court; Ms. Anne Wicks, our Executive Officer; 
and several other key members of senior staff.

                              INTRODUCTION

    As you know, the District of Columbia has a two-tier court 
system comprised of the District of Columbia Court of Appeals, 
our court of last resort, and the Superior Court of the 
District of Columbia, a trial court of general jurisdiction. 
Administrative support functions for our courts are provided by 
an entity known as the court system.
    The mission of the District of Columbia Courts is to 
protect rights and liberties, uphold and interpret the law, and 
resolve disputes peacefully, fairly, and efficiently in the 
District of Columbia.
    Our successes in fulfilling this mission are attributable, 
in large part, to the consistent support we have received from 
Congress and the President. With your continued support, we are 
confident that we will be able to continue to achieve many of 
the strategic goals we have set for ourselves and for our 
community.

                           BUDGET PRIORITIES

    The District of Columbia Courts serve approximately 10,000 
courthouse visitors each day, process more than 150,000 cases 
each year, and employ a staff of 1,200, who directly serve the 
public, process cases and provide administrative support. The 
number of filings and case dispositions in both courts rank 
among the highest in the Nation on a per capita basis. It is 
for these reasons that our two priority items in this fiscal 
year's budget concern our workforce and our space needs. More 
specifically, the courts' fiscal year 2008 budget priority 
requests are for full funding for all currently authorized 
positions and funding to complete the old courthouse 
restoration.
    Over the past several years increasing costs for 
healthcare, retirement benefits, and cost-of-living adjustments 
have outpaced appropriations, resulting in a significant 
funding shortfall in the courts' personal services budget. A 
sufficient workforce is essential for the D.C. Courts to meet 
our statutory obligations, fulfill our mission, and ensure that 
the public receives high quality justice and services from the 
judicial branch of Government. Because personal services costs 
make up 75 percent of the courts' budget, the shortfall has 
forced us to severely limit hiring.
    Today the courts have a 13-percent nonjudicial vacancy 
rate, a vacancy rate that is beginning to detrimentally effect 
court operations. The requested $8.4 million will fully fund 
the positions currently authorized for the courts.
    The courts continue to implement the facilities master 
plan, and this concerns our second priority issue, that was 
developed in 2002 and revised after passage of the Family Court 
Act. The plan covers the five buildings and 1.1 million gross 
square feet of space that comprise our campus in Judiciary 
Square; accordingly, resources for capital improvements remain 
critical.
    As you know, the D.C. Courts are renovating the old 
courthouse for relocation of the D.C. Court of Appeals. The old 
courthouse is an historic landmark and the centerpiece of 
Judiciary Square. A few years ago, that old courthouse was 
vacant and uninhabitable by modern health and safety standards. 
At that time, the D.C. Courts were facing space shortages in 
the 1970s era Moultrie Courthouse. The facilities master plan 
defined how the courts could best create space to operate and 
serve the public efficiently. It makes clear that the 
restoration of the old courthouse, an historic landmark in need 
of preservation, is also the key to meeting the space needs of 
the D.C. Courts.
    We are very pleased that Congress and the President have 
strongly supported this restoration project. From fiscal year 
2005 to 2007, $99 million was appropriated for the construction 
contract. Construction began just over 1 year ago, in March 
2006, and is scheduled to be completed in December 2008. We 
have provided your staff with pictures that show the progress 
that has been made to date.
    The final phase of the funding requested in fiscal year 
2008 is $30 million for costs not included in the construction 
contract, such as removal of hazardous materials, construction 
management, and contingency and management reserves.
    To maximize the efficient use of the facility once it 
opens, the court's budget request also includes $2.6 million 
for furniture, equipment, and technology necessary to outfit 
the restored building.

                     THE PRESIDENT'S RECOMMENDATION

    We're very pleased that the President's D.C. Court's 
funding recommendation for fiscal year 2008 supports these two 
priority budget items. The President's recommendation also 
finances another key capital project, electrical repairs in the 
Moultrie Courthouse and provides funds for emergency facility 
repairs. The Moultrie Courthouse is approximately 30 years old, 
and was not built to handle the expanded electrical load 
resulting from the use of computers and other modern office 
equipment. According to our energy consultant, the current 
electrical system in the Moultrie Courthouse is overburdened 
and poses a serious threat to the safety of workers and 
building occupants, and must be updated as soon as possible.

                               CONCLUSION

    We have long enjoyed a reputation for excellence in the 
District of Columbia Courts. Adequate funding for our budget 
priorities is critical to our success. We appreciate the 
support this subcommittee has given us in the past and the 
present support for our budget initiatives. We look forward to 
working with you throughout this process.

                           PREPARED STATEMENT

    If there are any questions, we'd be happy to answer them at 
an appropriate time. Thank you very much, Mr. Chairman.
    Senator Durbin. Thank you, Judge Washington.
    [The statement follows:]

          Prepared Statement of Chief Judge Eric T. Washington

    Mister Chairman, Senator Brownback, Subcommittee members, thank you 
for this opportunity to discuss the fiscal year 2008 budget request of 
the District of Columbia Courts. I am Eric T. Washington, and I am the 
Chair of the Joint Committee on Judicial Administration in the District 
of Columbia, the policy-making body for the District of Columbia 
Courts. I also serve as Chief Judge of the District of Columbia Court 
of Appeals.
    As you may know, this jurisdiction has a two-tier court system 
comprised of the D.C. Court of Appeals, our court of last resort, and 
the Superior Court of the District of Columbia, a trial court of 
general jurisdiction. Administrative support functions for our Courts 
are provided by what is known as the Court System.

                              INTRODUCTION

    We live in a changing environment, facing new challenges to our 
nation, our Nation's Capital, and our court system. Whatever challenges 
we face, the fair and effective administration of justice remains 
crucial to our way of life. The District of Columbia Courts are 
committed to responding to the changing needs of our society and 
meeting these new challenges. We have been steadfast in our mission, 
which is to protect rights and liberties, uphold and interpret the law, 
and resolve disputes peacefully, fairly and efficiently in the Nation's 
Capital. Through our Strategic Plan, the D.C. Courts strive to enhance 
the administration of justice; broaden access to justice and service to 
the public; promote competence, professionalism, and civility; improve 
court facilities and technology; and build trust and confidence in our 
courts. We appreciate the support of Congress and the President, which 
makes possible the achievement of these goals for our community.
    To support our mission and goals in fiscal year 2008, the Courts 
budget submission requested $347,774,000 for court operations and 
capital improvements. Of this amount, $13,389,000 is requested for the 
Court of Appeals; $100,543,000 is requested for the Superior Court; 
$54,052,000 is requested for the Court System; and $179,790,000 is 
requested for capital improvements for courthouse facilities. In 
addition, the Courts requested $52,475,000 for the Defender Services 
account.
    The D.C. Courts are committed to fiscal prudence and sound 
financial management. The fiscal year 2008 budget request represents an 
operating budget increase of $31.2 million and 20 full-time equivalent 
(FTE) positions over the fiscal year 2007 appropriation. The two 
highest priorities in the Courts' operating budget request are (1) 
$8,432,000 to fully fund all authorized positions, a special request in 
the budget submission and (2) $2,589,000 to furnish and equip the 
restored Old Courthouse. These two requests account for 35 percent of 
the operating budget increase.
    As the Courts continue to implement the Facilities Master Plan for 
our five buildings and 1.1 million gross square feet of space, 
resources for capital improvements remain critical priorities. The 
fiscal year 2008 capital budget reflects an increase of $99,868,000 
over the fiscal year 2007 level to complete the restoration and 
occupancy of the Old Courthouse, support critical space and technology 
needs, and to maintain the Courts' infrastructure. The Old Courthouse 
restoration remains the most pivotal item in the capital budget, with a 
request for $30 million to cover project costs not included in the 
general construction contract.

                      OPERATING BUDGET PRIORITIES

Special Request for Personal Services Funding
    Over the past several years, increasing personal services costs for 
health benefits and cost of living adjustments have outpaced 
appropriations, resulting in a significant funding shortfall in the 
Courts' personal services budget. Like all organizations that serve the 
public, the greatest asset and resource of the D.C. Courts is our 
people. A sufficient workforce is essential for the D.C. Courts to meet 
statutory mandates, fulfill our mission, and ensure that the public 
receives high quality justice and services from the judiciary. As 
personal services costs make up 75 percent of the Courts' budget, the 
shortfall has necessitated limited hiring. Today, the Courts have a 13 
percent non-judicial vacancy rate, to the detriment of court 
operations. Staffing shortages have a profound negative impact on the 
fair and effective resolution of disputes and public safety. The 
Courts' budget request includes $8,432,000 to fully fund the positions 
currently authorized for the Courts to fulfill our mission. Unless this 
most critical issue facing the D.C. Courts is addressed, the Courts 
will be unable to fill mission-critical positions, and the quality of 
justice in the District of Columbia will be compromised.
Furniture and Equipment for the Old Courthouse
    As discussed in detail below, the D.C. Courts are renovating the 
historic Old Courthouse for use by the Court of Appeals. The building 
not only will be restored in keeping with its historic and 
architectural significance, but it will also be returned to its 
original use as a courthouse to serve the people of the District of 
Columbia. Construction is scheduled to be complete at the end of 2008. 
To maximize the efficient use of space and technology, the Courts' 
budget request includes $2,589,000 for the furniture and equipment 
necessary to outfit the facility.
       capital budget priority: restoration of the old courthouse
    The Old Courthouse is an historic landmark that is the centerpiece 
of Judiciary Square. The cornerstone was laid with great fanfare in 
1820, and its neoclassical design embodies the democratic ideals of 
Ancient Greece. Originally constructed as a courthouse and City Hall, 
it has served as a courthouse for most of its 187 years. A few years 
ago, it was uninhabitable, with worn out mechanical systems, hazardous 
materials, and numerous other violations of modern health and safety 
standards. Yet, its proud history and aesthetic beauty remained. At the 
same time, the D.C. Courts were facing space shortages in the 1970's 
Moultrie Courthouse, and new mandates for the Family Court increased 
our space requirements. A Facilities Master Plan was developed to 
determine how to provide enough space to operate and serve the public 
efficiently. It was clear that restoration of the Old Courthouse, badly 
needed for historic preservation, was also the key to meeting the space 
requirements of the D.C. Courts.
    We are very pleased that Congress and the President have strongly 
supported this restoration. As you may know, Congress elected to 
finance the restoration in phases. From fiscal year 2005 though fiscal 
year 2007, Congress has provided $99 million for the construction 
contract. The final phase of the funding is $30 million for costs not 
included in the construction contract, such as removal of hazardous 
materials; wiring for security, technology and telecom equipment; 
construction management; and contingency and management reserves.

                     THE PRESIDENT'S RECOMMENDATION

    I am very pleased that the President's recommendation for fiscal 
year 2008 supports our most important priority items: personal services 
funding and restoration of the Old Courthouse. In addition, the 
President's recommendation finances two key capital items: electrical 
repairs in the Moultrie Courthouse and emergency facility repairs. The 
Moultrie Courthouse is approximately 30 years old and, due to its age 
and the expanded electrical load from computers and other modern office 
equipment, the electrical system poses a serious threat to the health 
and safety of workers and building occupants.
    The Courts' budget request includes several initiatives needed to 
keep our capital projects on the schedule established by our Facilities 
Master Plan that are not supported this year in the President's 
recommendation. These projects, such as the renovation of the Moultrie 
Courthouse and Building C (the old juvenile court), will need to be 
addressed in future years. As we have learned, any delay in 
construction projects significantly increases their cost.

                          RECENT ACHIEVEMENTS

    As the Courts approach the tenth year of direct federal funding in 
fiscal year 2008, we look forward to building on past reforms that 
enhanced our services to the community and demonstrated our commitment 
to fiscal responsibility. We are proud of the Courts' recent 
achievements that all enhance public trust and confidence and that 
include the following:
  --construction to restore the Old Courthouse, a building of historic 
        and architectural significance that is critical to meeting the 
        long term space needs of the Courts and to urban renewal in the 
        District, following approval by the National Capital Planning 
        Commission, Commission of Fine Arts, and Historic Preservation 
        Board;
  --development and approval by the National Capital Planning 
        Commission of a Master Plan for Judiciary Square, an urban 
        design and renewal plan to revitalize this historic area of the 
        District of Columbia that dates to the original L'Enfant Plan 
        for the Nation's Capital;
  --initiation of our second five-year strategic plan, Committed to 
        Justice in the Nation's Capital, to ensure that the Courts' 
        goals, functions, and resources are strategically aligned to 
        our budget and our operations for maximum efficiency and 
        effectiveness through 2012;
  --adoption of 13 courtwide performance measures which will enhance 
        the Courts' ability to monitor and assess case management 
        activities and, ultimately, to inform the public about our 
        performance;
  --comprehensive space renovation, including mechanical, electrical 
        and security upgrades; new space for the Landlord Tenant and 
        Small Claims courts and juvenile probation (the Social Services 
        Division of the Family Court) in Building B; and renovated 
        space in Building A for the Crime Victims Compensation Program 
        and the Multi-Door Division, as the Courts' Facilities Master 
        Plan is implemented.
  --Full implementation of the Family Court Act, including a newly 
        constructed, family friendly facility on the JM level of the 
        Moultrie Courthouse in fiscal year 2004, which houses the new 
        Central Intake Center to provide one-stop public service; 
        implementation of the one family-one judge principle; 
        development of attorney practice standards and creation of 
        attorney panels for neglect and juvenile cases; establishment 
        of a Family Treatment Court for mothers with substance abuse 
        issues and their children; creation of a Self-Help Center for 
        unrepresented litigants; opening the Mayor's Services Liaison 
        Center in the courthouse to coordinate the provision of needed 
        social services; transferring all required children's cases to 
        Family Court judges; and installation of a family sculpture at 
        the reconfigured entrance to the Family Court;
  --establishment of the District of Columbia Access to Justice 
        Commission, by the Court of Appeals, to enhance access to civil 
        justice for all persons without regard to economic status;
  --inauguration of Court of Appeals Education Outreach Initiative, 
        which includes oral arguments in the community at law schools 
        located in the District of Columbia followed by opportunities 
        for students to ask the judges questions about appellate 
        advocacy;
  --initiation by the Court of Appeals of web-streaming oral arguments, 
        giving the public real-time access, on the Internet, to oral 
        arguments before the Court;
  --implementation by the Court of Appeals of a comprehensive revision 
        of its rules of practice to reduce expenses associated with 
        record preparation, the first such revision since the mid-
        1980's;
  --development and implementation of a appellate mediation program to 
        assist parties in reaching satisfactory case outcomes more 
        expeditiously, thereby saving the public and the Court of 
        Appeals time and money;
  --installation and conversion to a new case management system in the 
        Superior Court, CourtView, through the Integrated Justice 
        Information System (IJIS) project which consolidates 19 
        distinct automated databases into one comprehensive system, 
        thereby ensuring complete information on all cases pertaining 
        to one individual or family to enhance case processing and 
        judicial decision-making;
  --revision of the Criminal Justice Act Plan to improve quality legal 
        representation for indigent criminal defendants in the Court of 
        Appeals;
  --continued enhancements to the Courts' website, designed to increase 
        public information and access, including implementation of on-
        line juror services and recognition by Justice Served as one of 
        the top ten court websites worldwide;
  --implementation of two community courts, the D.C. and Traffic 
        Community Court and the East of the River Community Court, to 
        enhance responsiveness to the community and to address quality 
        of life crimes through a blend of therapeutic justice and 
        restorative justice;
  --creation of a Landlord Tenant Resource Center and a Small Claims 
        Resource Center to provide free legal information to 
        unrepresented parties and referrals to legal and social service 
        providers;
  --promulgation of draft probate attorney practice standards and 
        creation of the Probate Review Task Force, to enhance service 
        to incapacitated adults and other parties in probate cases;
  --disposition of 1,443 cases and receipt of 1,541 filings in the 
        Court of Appeals, and disposition of 136,413 and receipt of 
        128,468 filings in the Superior Court (fiscal year 2005 
        statistics), continuing operation as one of the busiest 
        courthouses in the nation (Superior Court judges hear more 
        cases, on average, than judges in all but eight states, and 
        case filings per capita in both the trial and appellate courts 
        rank at or near the highest in most categories, as examined by 
        the National Center for State Courts).

                       D.C. COURTS INFRASTRUCTURE

    The Courts' capital budget has been a primary focus of our budget 
request for several years. The District of Columbia Courts serve 
approximately 10,000 courthouse visitors each day, process more than 
150,000 cases each year, and employ a staff of 1,200 who directly serve 
the public, process the cases, and provide administrative support. As 
noted above, the District of Columbia Courts are among the busiest and 
most productive court systems in the United States.
    The Courts' capital needs are significant because we are 
responsible for 1.1 million gross square feet of space in Judiciary 
Square and five buildings, including the Moultrie Courthouse, one of 
the busiest and most heavily visited public buildings in the District 
of Columbia. The ages of the Courts' buildings ranges from 30 years to 
200 years. Our funding requirements include projects critical to 
maintaining, preserving, and building safe and functional courthouse 
facilities essential to meeting the heavy demands of the administration 
of justice in our Nation's Capital. To effectively meet these demands, 
the Courts' facilities must be both functional and emblematic of their 
public significance and character.
    Facilities that provide adequate and efficiently designed space are 
essential to enhance the administration of justice, simplify public 
interaction with courts, and improve access to justice for all. In 
contrast, facilities with inadequate space for employees to perform 
their work, with evidence of long-deferred maintenance and repair, and 
with inefficient layouts can detract from the public perception of the 
dignity and importance of a court and impair its ability to function in 
the community. This negative perception impacts public trust and 
confidence in courts, a nationally recognized critical requirement for 
the effective administration of justice. The National Center for State 
Courts succinctly states the relationship between courts and their 
facilities:

    ``Court facilities should not only be efficient and comfortable, 
but should also reflect the independence, dignity, and importance of 
our judicial system . . . It is difficult for our citizens to have 
respect for the courts and the law, and for those who work in the 
court, if the community houses the court in facilities that detract 
from its stature.'' \1\
---------------------------------------------------------------------------
    \1\ Don Hardenbergh with Robert Tobin, Sr. and Chang-Ming Yeh, The 
Courthouse: A Planning and Design Guide for Court Facilities, National 
Center for State Courts, 1991, p. xiii.

    Deferred maintenance forced by limited financial resources over 
many years left these buildings in a state that may be perceived to 
detract from the stature of the Courts. We are beginning to see 
improvements, thanks to your support in recent years, but much work 
remains to be done. The Courts' fiscal year 2008 budget request seeks 
resources to meet health and safety building codes and to provide 
secure facilities for the public. For example, adequate ventilation 
must be provided in the courthouse buildings. Electrical systems must 
be upgraded, both to meet modern office needs and to limit risk of 
fire. Safety hazards posed by disintegrating flooring materials must be 
remedied. The halls of justice in the District of Columbia must be well 
maintained, efficient, and adequately sized to inspire the confidence 
of the members of the public who enter our buildings. The Courts' 
facilities plans will, over a ten-year period, meet the well-documented 
space needs of the Courts and return the buildings to a condition that 
inspires trust in the justice system of the Nation's Capital.
    The Courts' facilities plans will also enhance the efficient 
administration of justice and improve public access to justice in this 
jurisdiction by co-locating related functions. The restoration of the 
Old Courthouse for the Court of Appeals, for example, will provide the 
public with a single location for services that are currently found on 
different floors and in different buildings from most Court of Appeals 
offices. Offices related to the Family Court, such as juvenile 
probation, will be consolidated in the Moultrie Courthouse, which will 
be made possible only as we renovate space in other buildings, 
converting usage to public court proceedings and relocating operations 
from Moultrie. More efficient location of these offices will not only 
facilitate public access to the Courts, but will also enhance the 
efficiency of operations.
    In addition, basic mechanical systems impact the administration of 
justice. A broken air conditioning or heating system, for example, can 
force suspension of trials when courtroom temperatures reach unbearable 
levels.
Facilities in the Courts' Strategic Plan
    The capital projects included in this request are an integral part 
of the Courts' Strategic Plan, completed in fiscal 2003. I am pleased 
to have co-chaired the Strategic Planning Leadership Council, which, 
with broad input from the community, developed the Strategic Plan of 
the D.C. Courts, entitled Committed to Justice in the Nation's Capital. 
The Strategic Plan articulates the mission, vision, and values of the 
Courts in light of current initiatives, recent trends, and future 
challenges. It addresses issues such as implementation of a Family 
Court, increasing cultural diversity, economic disparity, complex 
social problems of court-involved individuals, the increasing presence 
of litigants without legal representation, rapidly evolving technology, 
the competitive funding environment, enhanced public accountability, 
competition for skilled personnel, and increased security risks.
    Facility improvements were identified as a high priority among all 
constituency groups surveyed by the Courts as the Strategic Plan was 
developed. Employees, judges, and stakeholders were asked to identify 
the most important issues the Courts must address in the coming years, 
and each ranked ``enhance court facilities'' among the highest 
priorities. In addition, approximately half of judges and 65 percent of 
employees reported inadequate light, heat, air conditioning, and 
ventilation in their workspaces.
    ``Improving Court Facilities and Technology'' is the Plan's 
Strategic Issue 4. The Strategic Plan states--

    ``The effective administration of justice requires an appropriate 
physical and technical environment. Court personnel and the public 
deserve facilities that are safe, comfortable, secure, and functional, 
and that meet the needs of those who use them. Technology must support 
the achievement of the Courts' mission.''
Historic Judiciary Square
    The D.C. Courts are primarily located in Judiciary Square, with 
some satellite offices and field units in other locations. The 
historical and architectural significance of Judiciary Square lend 
dignity to the important business conducted by the Courts and, at the 
same time, complicate efforts to upgrade or alter the structures within 
the square. Great care has been exercised in designing the restoration 
of the Old Courthouse, the centerpiece of the square, to preserve the 
character not only of the building, but also of Judiciary Square. As 
one of the original and remaining historic green spaces identified in 
Pierre L'Enfant's plan for the capital of a new nation, Judiciary 
Square is of keen interest to the Nation's Capital.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. The 
Moultrie Courthouse, although not historic, is also located along the 
view corridor and reinforces the symmetry of Judiciary Square through 
its similar form and material to the municipal building located across 
the John Marshall Plaza.
            Judiciary Square Master Plan
    The National Capital Planning Commission (NCPC) required that the 
D.C. Courts develop a Judiciary Square Master Plan--essentially an 
urban design plan--before any construction by the Courts and others 
could be commenced in the area. The D.C. Courts worked with all 
stakeholders on the Plan, including the United States Court of Appeals 
for the Armed Forces, the National Law Enforcement Officers Memorial 
Fund (Memorial Fund), the Newseum, and the Metropolitan Police 
Department. The Judiciary Square Master Plan was approved in August 
2005.
    The Judiciary Square Master Plan resolves important technical 
issues related to access, service, circulation, and security within a 
rapidly changing and publicly oriented area of the District, while re-
establishing the importance of this historic setting in the ``City of 
Washington.'' It provides a comprehensive framework for capital 
construction for all local entities, and it lays the groundwork for the 
regulatory approval process with the National Capital Planning 
Commission, the U.S. Commission of Fine Arts, the District of Columbia 
Office of Historic Preservation, the District of Columbia Office of 
Planning, and the District of Columbia Department of Transportation, 
among others. The Judiciary Square Master Plan will ensure the 
preservation of one of the last green spaces in the District of 
Columbia awaiting revitalization, incorporating areas where the public 
can gather and relax, and creating a campus-like environment where 
citizens can feel safe and secure.
            Master Plan for D.C. Courts Facilities
    The Courts worked with the General Services Administration (GSA) on 
a number of capital projects since fiscal year 1999, when the Courts 
assumed capital project responsibility from the District's Department 
of Public Works. In 1999, GSA produced a study for the renovation of 
the Old Courthouse to house the D.C. Court of Appeals. In 2001, GSA 
prepared Building Evaluation Reports that assessed the condition of the 
D.C. Courts' facilities. These projects culminated in the development 
of the first Master Plan for D.C. Courts Facilities, which delineates 
the Courts' space requirements and provides a blueprint for optimal 
space utilization, both in the near and long term.
    The Master Plan for D.C. Courts Facilities (Facilities Master 
Plan), completed in December 2002, incorporates significant research, 
analysis, and planning by experts in architecture, urban design and 
planning. During this study, GSA analyzed the Courts' current and 
future space requirements, particularly in light of the significantly 
increased space needs of the Family Court. The Facilities Master Plan 
examined such issues as alignment of related court components to meet 
evolving operational needs and enhance efficiency; the impact of the 
D.C. Family Court Act of 2001 (Public Law Number 107-114); 
accommodation of the Courts' space requirements through 2012; and plans 
to upgrade facilities, including, for example, security, 
telecommunications, and mechanical systems. The Plan identified a space 
shortfall for the Courts of 48,000 square feet of space in 2002, with a 
shortfall of 134,000 square feet projected in the next decade.
    The experts proposed to meet the Courts' space needs through three 
mechanisms: (1) renovation of the Old Courthouse for the District of 
Columbia Court of Appeals, which will free critically needed space in 
the Moultrie Courthouse for trial court operations; (2) construction of 
an addition to the Moultrie Courthouse, to include a separately 
accessible Family Court facility; and (3) the reoccupation and 
renovation of Building C, adjacent to the Old Courthouse. In addition, 
the Plan determined that all court facilities must be modernized and 
upgraded to meet health and safety standards and to function with 
greater efficiency.
Overview of the D.C. Courts' Facilities
    The Courts currently maintain four buildings in Judiciary Square: 
the Old Courthouse at 430 E Street, the Moultrie Courthouse at 500 
Indiana Avenue, N.W., and Buildings A and B, which are located between 
4th and 5th Streets and E and F Streets, N.W. In addition, the District 
government has partially vacated Building C, which will soon return to 
the D.C. Courts' inventory.
            Old Courthouse
    The Old Courthouse, built from 1821 to 1881, is one of the oldest 
public buildings in the District of Columbia. Inside the Old 
Courthouse, Daniel Webster and Francis Scott Key practiced law and John 
Surratt was tried for his part in the assassination of President 
Abraham Lincoln. The architectural and historical significance of the 
Old Courthouse led to its listing on the National Register of Historic 
Places and its designation as an official project of Save America's 
Treasures. The unique character of the building, together with its 
compact size, makes it ideal for occupancy by the highest court of the 
District of Columbia. At the same time, the structure requires 
extensive work to meet health and safety building codes and to readapt 
it for modern use as a courthouse. The restoration of the Old 
Courthouse for use as a functioning court building will not only 
provide much needed space for the Courts, but it will also preserve a 
historic treasure of our nation and impart new life to one of the most 
significant historic buildings and precincts in Washington, D.C. It 
will meet the needs of the Courts and benefit the community through an 
approach that strengthens a public institution, restores a historic 
landmark, and stimulates neighborhood economic activity.
            Moultrie Courthouse
    The Moultrie Courthouse is uniquely designed to meet the needs of a 
busy trial court. It has three separate and secure circulation 
systems--for judges, the public, and the large number of prisoners 
brought to the courthouse each day. Built in 1978 for 44 trial judges, 
today it is strained beyond capacity to accommodate 59 trial judges and 
24 magistrate judges in the trial court and 9 appellate judges, as well 
as senior judges and more than 1,000 support staff members for the two 
courts. Currently, the Moultrie Courthouse provides space for most 
Court of Appeals, Superior Court, and Family Court operations and 
clerk's offices. Essential criminal justice and social service agencies 
also occupy office space in the Moultrie Courthouse. The Courts have 
clearly outgrown the space available in the Moultrie Courthouse. The 
space is inadequate for this high volume court system to serve the 
public in the heavily populated metropolitan area in and around our 
Nation's Capital.
            Buildings A, B, and C
    Buildings A, B, and C, dating from the 1930's, have been used 
primarily as office space in recent years and today are being renovated 
and modernized for court operations. The D.C. Courts have begun 
implementation of the Facilities Master Plan, relocating the Superior 
Court's two highest volume courtrooms, Small Claims and Landlord 
Tenant, into Building B. This move vacated space in the Moultrie 
Courthouse that was immediately renovated for the Family Court, 
permitting the construction of three new courtrooms, three new hearing 
rooms, a centralized case intake facility, a family-friendly waiting 
area, and District government liaison offices for Family Court matters. 
The first phase of restoration of Building A is complete; the Multi-
Door Dispute Resolution Division moved late in 2006 and the Probate 
Court is scheduled to move to Building A later this year.

                    COMPLETE BUDGET REQUEST SUMMARY

    To build on past accomplishments and to serve the public in the 
District of Columbia, the Courts require additional resources in fiscal 
year 2008 as outlined below. Without additional capital resources, the 
courthouse and the District's historic buildings will continue to 
deteriorate; without targeted investments in critical areas, the 
quality of justice in the Nation's Capital will be compromised. The 
fiscal year 2008 request addresses these requirements by:
  --Full Funding for Authorized Positions.--To ensure the level of 
        staffing needed for the Courts to fulfill its mission, the 
        budget includes a special request for $8,432,000. All Court 
        personnel, from judges in courtrooms and clerks at public 
        service counters to managers and support staff, play important 
        roles in the administration of justice in the District. The 
        Courts' mission and strategic goals rely upon highly skilled 
        personnel in sufficient numbers to serve the residents of this 
        jurisdiction and visitors in the Nation's Capital. Unless this 
        most critical issue facing the D.C. Courts is addressed, the 
        Courts will be unable to fill mission-critical positions, and 
        the quality of justice in the District of Columbia will be 
        compromised.
      Over several years, increasing personal services costs have 
        outpaced appropriations, resulting in a significant funding 
        shortfall in the Courts' personal services budget. Escalating 
        benefit costs, particularly those for health insurance, 
        underfunded cost of living adjustments (COLAs), and unfunded 
        salary costs (e.g., overtime and night differential) all 
        contribute to the personal services funding gap. The cost of 
        benefits, for example, has increased by 43 percent from fiscal 
        years 2001 to 2005 while personal services appropriations 
        increased by only 13 percent. Cost-of-living-adjustments cost 
        the Courts $8 million more than the funding provided, from 
        fiscal years 2002 to 2006. Costs for salary components such as 
        overtime have skyrocketed as well.
      Because 75 percent of the Courts' budget is comprised of personal 
        services costs, the shortfall has resulted in increased staff 
        vacancies and a hiring freeze. Without the requested funding, 
        the Courts predict a non-judicial vacancy or lapse rate of 15 
        percent in fiscal year 2008 compared to the government standard 
        of 3 percent. Severe negative consequences on the 
        administration of justice and disruptions to court operations 
        would result from a reduction of nearly one in six persons.
      The Courts have taken several steps to address the personal 
        services budget gap, including reengineering business 
        processes, deferring the 2007 cost of living adjustment, 
        implementing a hiring freeze, seeking legislation for buyout 
        authority, limiting travel and training opportunities, 
        curtailing employee incentive awards, and reprogramming funds 
        as permitted by law. However, additional funding is required to 
        permit the Courts to maintain adequate staff to carry out our 
        mission.
  --Infrastructure Investments.--To ensure the health, safety, and 
        condition of court facilities and to address operational space 
        needs, the fiscal year 2008 capital request totals 
        $179,790,000. The fiscal year 2008 capital request incorporates 
        the significant research and planning comprising the Facilities 
        Master Plan. In the master plan process, the General Services 
        Administration (GSA) analyzed the Courts' current and future 
        space requirements, particularly in light of the significantly 
        increased space needs of the Family Court, and identified a 
        134,000 occupiable square feet shortfall over the next ten 
        years. In addition to improved maintenance and upgrade of 
        existing facilities, the Facilities Master Plan recommended a 
        three-part approach to meeting the Courts' space shortfall: (1) 
        restoration of the Old Courthouse at 451 Indiana Avenue to 
        house the D.C. Court of Appeals and to make additional space 
        available in the Moultrie Courthouse for trial court 
        operations; (2) an addition to the Moultrie Courthouse to 
        accommodate fully consolidated and state-of-the-art Family 
        Court facilities; and (3) reoccupation of Court Building C, 
        adjacent to the Old Courthouse.
    --Old Courthouse.--The Courts' capital request includes $30,000,000 
            for Old Courthouse restoration costs not included in the 
            construction contract, such as wiring for security, 
            technology and telecom equipment, construction management, 
            and contingency and management reserves.\2\
---------------------------------------------------------------------------
    \2\ Because the Courts' budget submission was prepared before the 
fiscal year 2007 budget was enacted, it also includes $13 million to 
complete financing of the construction contract for the renovation.
---------------------------------------------------------------------------
    --Moultrie Courthouse.--Also included in the capital budget request 
            is $29.1 million to continue work on the Moultrie 
            Courthouse, as delineated in the Facilities Master Plan. 
            Renovation and reorganization of the interior of the 
            Moultrie Courthouse is necessary to shift operations to 
            vacate some of the space required to fully consolidate the 
            Family Court within Moultrie and to upgrade and make 
            efficient use of existing space as envisioned in the 
            Facilities Master Plan.
    --Building Maintenance.--The capital budget also includes 
            $55,490,000 to maintain the Courts' existing 
            infrastructure, preserving the health and safety of 
            courthouse facilities for the public and the integrity of 
            historic buildings for the community. The Courts' 
            facilities encompass more than 1.1 million gross square 
            feet of space. Over the course of many years, limited 
            resources have forced the Courts to defer routine 
            maintenance of these facilities, leading to increased risk 
            of severe system failures. For example, electrical service 
            to meet modern technology needs is critical, not only to 
            conduct court business, but also to prevent failures that 
            threaten safety, such as electrical fires or transformer 
            explosions.
    --Homeland Security.--To protect the 10,000 daily visitors to the 
            courthouse and meet increased security threats that face 
            the judiciary nationwide and public institutions post 
            September 11, 2001, the Courts' request includes 
            $16,000,000 in capital funds for perimeter security 
            enhancements to protect the occupants of the high-profile 
            court buildings in Judiciary Square.
    --U.S. Marshals Service Space.--The U.S. Marshals Service provides 
            security for the D.C. Courts and manages hundreds of 
            prisoners who appear in court each day. The adult cellblock 
            and Marshals Service office space in the Moultrie 
            Courthouse require modernization and upgrade to comply with 
            current standards. The Courts are working with the Marshals 
            Service on a study to determine the requirements in a 
            comprehensive manner. We initiated the study in March and 
            expect it to be complete on May 3. Although the preliminary 
            cost estimate is $42 million for the construction work, the 
            additional cost of the security equipment has not yet been 
            determined.
  --Furniture and Equipment for the Restored Old Courthouse.--The 
        Courts' request includes $2,589,000 to furnish and equip the 
        Old Courthouse upon restoration. As noted above, the 
        restoration of the Old Courthouse for this jurisdiction's 
        highest court, the D.C. Court of Appeals, is in progress. To 
        prepare to move into the structure and efficiently use the 
        space as planned, furniture and equipment must be procured in 
        fiscal 2008.
  --Services for Citizens.--To enhance services to some of the 
        District's most vulnerable residents, $2,184,000 and 10 FTEs 
        are requested. This figure includes $853,000 and 2 FTEs to 
        provide statutorily-mandated advocates for mentally retarded 
        individuals who are wards of the District; $771,000 and 5 FTEs 
        to provide services and additional probation officers for 
        youths under court supervision; $375,000 for interpreters who 
        provide sign language and foreign language interpretation for 
        litigants; and $185,000 and 3 FTEs to enhance monitoring of the 
        status of incapacitated adults with court-appointed guardians.
  --Technology, Financial, Materiel, and Facilities Management.--To 
        enhance technology, financial, materiel, and facilities 
        management, $1,607,000 and 10 FTEs are requested. Included in 
        the total are $331,000 for software maintenance fees for the 
        trial court case management system (CourtView); $585,000 for 
        warehouse space to store court records and materials, $363,000 
        and 6 FTEs for building engineers and services; $255,000 for 
        accounting staff; and $73,000 for a materiel management 
        function.
  --Built-In Increases.--The fiscal year 2008 request also includes 
        $4,155,000 for a cost-of-living adjustment, $1,630,000 for non-
        pay inflationary cost increases, and $1,412,000 for within-
        grade increases. The Courts' request includes within-grade 
        increases for employees because unlike typical agencies, which 
        may fund these increases through cost savings realized during 
        normal turnover, the Courts have a very low turnover rate (5.5 
        percent in fiscal year 2006), a hiring freeze, and a funding 
        shortfall in personal services.
  --Defender Services Enhancements.--In recent years, the Courts have 
        devoted particular attention to improving the financial 
        management and reforming the administration of the Defender 
        Services programs. For example, the Courts have significantly 
        revised the Criminal Justice Act (CJA) Plan for representation 
        of indigent defendants to ensure that highly qualified 
        attorneys represent indigent defendants. In addition, the 
        Courts have developed a new Counsel for Child Abuse and Neglect 
        (CCAN) Plan for Family Court cases, adopting attorney practice 
        standards and requiring attorney training and screening to 
        ensure that well-qualified attorneys are appointed in these 
        cases, and contracting for Guardian ad litem (GAL) services to 
        enhance representation of abused and neglected children. The 
        Guardianship Program has also been revised, imposing a training 
        requirement on attorneys participating in the program.
      In the Defender Services account, the Courts' fiscal year 2008 
        budget request represents an increase of $9,000,000 over the 
        fiscal year 2007 level. This increase reflects a compensation 
        adjustment for attorneys from $65 to $90 per hour, to keep pace 
        with the rate paid court-appointed attorneys at the Federal 
        courthouse across the street from the D.C. Courts and to ensure 
        that the indigent receive high quality legal representation.

                               CONCLUSION

    Mister Chairman, Senator Brownback, Subcommittee members, the 
District of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the Courts' record of administering justice 
in a fair, accessible, and cost-efficient manner. Adequate funding for 
the Courts' fiscal year 2008 priorities is critical to our success, not 
only in the next year but also as we implement plans to continue to 
provide high quality service to the community in the future. We 
appreciate the President's support for the Courts' funding needs in 
2008 and the support we have received in the past from the Congress. We 
look forward to working with you throughout the appropriations process, 
and we thank you for this opportunity to discuss the fiscal year 2008 
budget request of the District of Columbia Courts.

    Senator Durbin. Judge King, many years ago we worked 
together in the creation of the Family Court and I welcome you 
today.

STATEMENT OF RUFUS G. KING III, CHIEF JUDGE, SUPERIOR 
            COURT OF THE DISTRICT OF COLUMBIA
    Judge King. We did indeed, Mr. Chairman and we at the 
Superior Court are very grateful for the contributions you made 
to that very successful legislation.
    Mr. Chairman, subcommittee members, thank you for this 
opportunity to discuss the fiscal year 2008 budget request of 
the District of Columbia Courts. I'm Rufus G. King III, Chief 
Judge at the Superior Court of the District of Columbia, the 
city's trial court.

                      OPERATING BUDGET PRIORITIES

    Chief Judge Washington's statement on behalf of the Joint 
Committee on Judicial Administration details both courts' 
complete budget request, so I will highlight Superior Court 
issues. The highest priorities described by Chief Judge 
Washington are also critical to the Superior Court.
    The personal services budget shortfall that Chief Judge 
Washington described has had a negative impact in both courts, 
but its impact on the trial court has been especially severe. 
In the Superior Court, more than one in eight positions is 
vacant and in every area of court operations the effect is 
being felt. I cannot overstate the importance of court staff to 
trial court operations. Judges in the courtroom can only do 
their jobs sufficiently and effectively when supported by 
adequate staff. The Superior Court prides itself on innovative 
programs designed to respond to the needs of the community we 
serve. For example, our domestic violence unit provides access 
to law enforcement and social service assistance in the 
courthouse and at a satellite center in Southeast, where many 
of the victims live.

                          FAMILY COURT UPDATE

    More than 5 years into the development of the Family Court, 
we have implemented every aspect of the Family Court Act of 
2001 and continue to look for improvements. This year, we 
opened a Balanced and Restorative Justice Drop-In Center in 
Anacostia, which offers services for the rehabilitation of 
juveniles, including probation supervision, tutoring, 
mentoring, peer mediation, and field trips for youths and their 
families.
    We have opened a Family Court Self-Help Center, in addition 
to ones that we've opened in Landlord Tenant Court, Small 
Claims Court, and Probate Court. In this self-help center, 
employees work with volunteer attorneys to provide 
unrepresented litigants with legal information on family law 
matters.
    We have established a Family Treatment Court to help 
mothers with substance abuse issues without separating them 
from their children. The court has developed attorney practice 
standards and created attorney panels for neglect cases in the 
Family Court and juvenile cases, as well as for the probate and 
criminal bar to better assure adequate legal representation for 
litigants in these vital areas.
    All of these programs rely on staff to serve the public 
directly, to coordinate pro bono services with the bar and 
private organizations, and to collaborate with other Government 
agencies. We are leveraging grant funds and pro bono services 
as much as we can, but the Superior Court must have adequate 
staff to carry out its mission of administering justice in the 
Nation's capital. For that the $8.4 million we've requested is 
critical.
    On the capital side, the new family friendly facility on 
the JM level of the Moultrie Courthouse houses the new Central 
Intake Center for all Family Court clerk's office functions. 
The Mayor's Services Liaison Center coordinates provision of 
social and other services by our District of Columbia partner 
agencies. Earlier this year, we completed its build out with 
the unveiling of a new family sculpture at the entrance to the 
Family Court.

                       CAPITAL BUDGET PRIORITIES

    Restoration of the old courthouse for the Court of Appeals 
will benefit the Superior Court as well as the Court of Appeals 
by freeing up approximately 37,000 square feet of space in the 
Moultrie Courthouse for trial court operations. This will allow 
us to complete consolidation of the Family Court, while also 
addressing other space needs in the Superior Court.

                               CONCLUSION

    In conclusion, Mr. Chairman, the Superior Court is proud of 
our efforts to enhance the administration of justice and to be 
responsive to the community we serve. We appreciate the support 
Congress and the President have shown in helping us carry out 
our goals and we believe we have been good stewards of the 
taxpayers hard-earned funds.

                           PREPARED STATEMENT

    Thank you for this opportunity to address the subcommittee. 
I'd be happy to answer any questions you might have.
    Senator Durbin. Thank you, Judge King.
    [The statement follows:]
          Prepared Statement of Chief Judge Rufus G. King III
    Mr. Chairman, Senator Brownback, subcommittee members, thank you 
for this opportunity to discuss the fiscal year 2008 budget request of 
the District of Columbia Courts. I am Rufus G. King III, Chief Judge of 
the Superior Court of the District of Columbia. As you know, the 
Superior Court is the trial court for the District of Columbia. It is a 
unified court of general jurisdiction, hearing matters brought to court 
under all areas of District of Columbia law.
    Chief Judge Washington's statement on behalf of the Joint Committee 
on Judicial Administration details the Courts' complete budget request, 
so I will highlight Superior Court issues as part of the larger D.C. 
Courts budget request and capital project needs.
    The personal services budget shortfall that Chief Judge Washington 
described has had a negative impact courtwide. For the Superior Court, 
this shortfall has resulted in a 13 percent vacancy rate today, meaning 
that one in eight non-judicial positions are vacant. Every area of 
court operations is suffering from these excessive vacancies. We are 
leveraging grant funds and pro bono services as much as we can, but the 
Court must have adequate staff to carry out its mission of 
administering justice in the Nation's Capital.

                    RESPONSIVENESS TO THE COMMUNITY

    The Superior Court prides itself on innovative programs designed to 
respond to the needs of the community we serve. I would like to share 
with you a few of the programs, some mentioned in Chief Judge 
Washington's statement, that the Superior Court has put in place to 
support our strategic goals of increasing public access and enhancing 
public trust and confidence in the courts.
Self-Help Centers
    Tens of thousands of individuals come to the Superior Court each 
year to have their disputes resolved without the assistance of an 
attorney. The Court has teamed with the D.C. Bar and local law schools 
to provide resource centers to assist these self-represented litigants 
as they navigate the court system.
  --The Landlord Tenant Resource Center uses volunteer attorneys to 
        provide legal information to landlords and tenants without 
        lawyers. Services include helping them understand the court 
        proceedings, helping them prepare pleadings, giving advice on 
        how to present their cases, making referrals to legal service 
        providers or social services resources.
  --The Small Claims Resource Center is a collaborative effort with the 
        D.C. Bar Pro Bono Program, the Neighborhood Legal Services 
        Program, and local law schools to assist litigants with small 
        claims cases at the court. Volunteer attorneys help self-
        represented litigants understand the court proceedings, help 
        them prepare documents, give them advice on how to present 
        their cases, and make referrals to legal service providers.
  --The Family Court Self-Help Center provides free walk-in service to 
        self-represented litigants with general legal information on 
        family law matters, such as divorce, custody, visitation, child 
        support. Court staff members inform litigants of their rights 
        and obligations, describe legal options, help litigants 
        identify which forms to use, and make referrals.
Satellite Offices
    The Domestic Violence Unit operates a Domestic Violence Satellite 
Center at Greater Southeast Hospital to provide a community-based 
alternative location to the courthouse for victims of domestic 
violence. This office provides easy access to the Superior Court for 
victims of domestic violence who reside east of the Anacostia River, 
where 60 percent of those filing domestic violence cases live. Both the 
Satellite Center and the Domestic Violence Intake Center at the 
courthouse involve collaborations with other government and community 
groups to provide ``one-stop-shopping'' for victims of domestic 
violence to help them access needed social services and law enforcement 
resources.
    The Court operates three juvenile probation field units, where 
young people meet with their probation officers and attend programs in 
or near their own neighborhoods. Our Family Court Social Services 
Division is restructuring the manner in which probationers are 
supervised and rehabilitated to adopt a more holistic approach that, we 
believe, will result in better outcomes. In February, the Court opened 
the first Balanced and Restorative Justice Drop-In Center, which 
includes a probation supervision office and a community-based satellite 
courtroom and offers services including tutoring, mentoring, education 
and prevention groups, peer mediation, recreation, and field trips to 
youth and their families.
Specialized Courts
    The Court stays abreast of best practices among courts nationwide 
and has several programs that combine therapeutic and restorative 
justice principles to improve public safety in our community and to 
enhance case outcomes for litigants. In addition to the drug courts we 
have operated for many years, we have three more recent programs.
  --The Family Treatment Court, which celebrated its 7th graduation 
        ceremony last November, helps keep children out of foster care 
        and with their mothers (or other female guardians) while 
        providing substance abuse treatment to the parent. In the 
        Family Treatment Court, a collaborative program with the 
        Mayor's Service Liaison Office, the children live with their 
        mothers in a residential substance abuse treatment program. The 
        treatment facility provides on-site and community-based 
        services, including substance abuse education and treatment, 
        parenting skill workshops, counseling and childcare.
  --The Truancy Court is a diversion program designed to increase 
        school attendance and improve academic performance and behavior 
        of at-risk children. In collaboration with several D.C. 
        government agencies, Family Court judges meet weekly with 
        children at Garnett Patterson Middle School and Kramer Middle 
        School and, through rewards and corrective actions, promote 
        compliance with a school attendance plan of action developed 
        for each child and family.
  --Two criminal Community Courts, the D.C./Traffic Community Court and 
        the East of the River Community Court, focus largely on 
        quality-of-life offenses such as possession of an open 
        container of alcohol, aggressive panhandling, disorderly 
        conduct, and low-level theft, through a variety of responses. 
        These community courts frequently require community service to 
        ``pay back'' the community. They also seek to reduce the 
        likelihood of future offenses by linking offenders with 
        services they may need, such as drug treatment, job training, 
        and mental health services. Community input is a key element of 
        the community court. At town hall meetings judges go to the 
        community to listen to their concerns and learn what the court 
        can do to strengthen our communities and to improve public 
        confidence in the justice system.

                               TECHNOLOGY

    To enhance service to the public, to operate more efficiently, and 
to support our strategic goal of improving court technology, the Court 
has undertaken a number of technology initiatives. I would like to 
highlight a few of these.
Integrated Justice Information System (IJIS)
    I am very pleased to report that we have completed implementing the 
Integrated Justice Information System (IJIS) throughout the Superior 
Court. This multi-year technology initiative was designed to facilitate 
case management and linkage of family members (which is essential to 
implementing the one family, one judge principle in Family Court), to 
enhance automation of the Court's business processes, to equip 
employees with productivity-enhancing tools, to provide a seamless 
exchange of information between the Court and other local and national 
criminal justice agencies, and to enhance services to the public by, 
among other things, enabling case filing and payment of fees in one 
location. As IJIS is enhanced, electronic case access and filing will 
be available through the Internet. IJIS has consolidated 19 different 
databases and provides comprehensive information to judicial officers. 
IJIS implementation has also given us an opportunity to improve 
information sharing within and among the District's child welfare and 
criminal justice agencies.
E-filing
    In a related step in the automation of case processing, the 
Superior Court last fall expanded e-filing. After a transition period, 
e-filing became mandatory for Civil II cases for parties represented by 
counsel. E-Filing provides the public and the legal community with 
user-friendly, low-cost access to the Courts. The new system allows 
documents filed with the Superior Court to be transmitted over the web 
for acceptance into the IJIS. The system generates electronic 
notifications to all parties, as well as to the judge in the case. E-
filing was implemented in the Superior Court in May 2005 to increase 
the timeliness, efficiency, and accuracy of court filing.
Web-based Juror Services
    To enhance services for jurors, the Court initiated an interactive 
juror website that allows jurors to view their last or next scheduled 
date of service, complete the juror questionnaire, and defer their 
service for up to 90 days online.

                               CONCLUSION

    Mr. Chairman, Senator Brownback, the D.C. Superior Court is proud 
of our efforts to enhance the administration of justice, to be 
responsive to the community we serve, and to implement technology that 
enhances our service to the public. We appreciate the support Congress 
and the President have shown in helping us carry out all of those 
goals, and we believe we have been good stewards of the taxpayers' 
hard-earned funds. We hope that the Court's request for funding for 
personal services adequate to bring our vacancy rate down from 13 
percent to a more normal 3-4 percent will meet with the subcommittee's 
approval.
    Thank you for this opportunity to address the subcommittee. I would 
be pleased to answer any questions you may have.

    Senator Durbin. Mr. Quander.

STATEMENT OF PAUL A. QUANDER, JR., ESQ., DIRECTOR, 
            COURT SERVICES AND OFFENDER SUPERVISION 
            AGENCY
    Mr. Quander. Good afternoon, Mr. Chairman. I'm pleased to 
appear before you today to present the fiscal year 2008 budget 
request for the Court Services and Offender Supervision Agency 
for the District of Columbia, which includes the District of 
Columbia Pre-Trial Services Agency.
    CSOSA's fiscal year 2008 budget request of $190.3 million 
includes $140.4 million for the Community Supervision Program, 
which supervises sentenced offenders in the community on 
probation, parole or supervised release, and $49.9 million for 
the Pretrial Services Agency, which supervises and monitors 
pre-trial defendants.
    Our fiscal year 2008 request increases total funding by 6 
percent or $10.7 million over fiscal year 2007. The majority of 
the requested increase, $6.2 million, will enable us to absorb 
salary and general schedule cost increases without curtailing 
program services.
    The Community Supervision Program requests an additional 
$2.1 million adjustment to base to achieve full implementation 
of a major program enhancement, our Residential Re-entry and 
Sanctions Center (RSC). This increase will allow us to open the 
Re-entry and Sanctions Center's sixth and final unit which will 
serve the female offender and defendant populations.
    The RSC, as the center is commonly referred to, is a 
tremendous resource for CSOSA and the citizens of the District 
of Columbia. It will enable us to provide re-entry programming 
for high risk offenders and defendants at the point of release. 
We can also respond quickly to noncompliant behavior, 
intervening before new criminal activity occurs. Research tells 
us that both strategies are critical to successful supervision.
    When CSOSA was established in 1997, reducing the high 
caseload of probation and parole officers was a top priority. 
While we have lowered general supervision caseloads to the 50 
cases per officer recommended by the American Probation and 
Parole Association, high pre-trial defendant caseloads continue 
to pose a serious risk to public safety.
    The Pretrial Services Agency's general supervision units 
supervise or monitor approximately 3,500 defendants on each and 
every day. In fiscal year 2006, many pre-trial supervision 
officers in these units carried an average caseload of 115 
defendants. At this level meaningful supervision cannot be 
maintained.
    In choosing to impose pre-trial supervision, the court 
assumes that release conditions will be enforced and 
infractions will be reported. With the current high caseloads, 
PSA is not able to provide the level of supervision that the 
court expects.
    PSA requests $1.6 million and nine full-time equivalent 
positions to lower its general supervision caseloads to 75 
defendants per pretrial supervision officer. While still higher 
than neighboring jurisdictions, this caseload will result in 
closer supervision and more timely response to infractions.
    Technology is an essential component of effective 
supervision. PSA also requests $768,000 and three full-time 
equivalent positions to expand the technology available to pre-
trial services officers. This request would add wireless 
cellular and global positioning systems monitoring capability 
to PSA's existing electronic monitoring program.
    Wireless cellular technology extends electronic monitoring 
to defendants who do not have a hard wired home telephone. 
Global positioning system (GPS) monitoring would allow PSA to 
quickly determine a defendant's location and track his or her 
movements. In addition, GPS monitoring can be used to notify 
authorities when a defendant violates a court order by 
approaching a school, known drug area or victim's home.
    In the 10 years since its founding, CSOSA has transformed 
community supervision in the District of Columbia. As a young 
agency we are still building critical elements of our 
infrastructure. Initiatives such as information technology, 
disaster recovery, fully modernized personnel and financial 
information systems and other enhancements are essential to 
ensuring our full compliance with Federal regulations.
    We also face continued facility challenges, particularly at 
300 Indiana Avenue--the building that we share with the 
Metropolitan Police Department.
    In closing I would like to thank the ranking member, 
Senator Brownback for his past efforts to make funding 
available to us for transitional housing. Lack of appropriate, 
affordable housing continues to be a major obstacle to 
successful re-entry.

                           PREPARED STATEMENT

    CSOSA's fiscal year 2008 budget enables us to continue 
implementing proven strategies to protect the public through 
effective community supervision. We look forward to the 
subcommittee's support of this request and I look forward to 
responding to any questions that this subcommittee may have. 
Thank you very much.
    Senator Durbin. Thanks, Mr. Quander.
    [The statement follows:]

               Prepared Statement of Paul A. Quander, Jr.

    Chairman Durbin and Members of the Subcommittee: I am pleased to 
appear before you today to present the fiscal year 2008 budget request 
for the Court Services and Offender Supervision Agency (CSOSA), which 
includes the D.C. Pretrial Services Agency (PSA). CSOSA was established 
by the National Capital Revitalization and Self-Government Improvement 
Act of 1997 (the Revitalization Act). Following a three-year transition 
period under the leadership of a trustee, CSOSA was certified as an 
independent Executive Branch agency on August 4, 2000.
    CSOSA's fiscal year 2008 budget request of $190.3 million is 
comprised of a $140.4 million request for the Community Supervision 
Program, which supervises sentenced offenders in the community on 
probation, parole, or supervised release, and a $49.9 million request 
for PSA, which supervises and monitors pretrial defendants. Our fiscal 
year 2008 request increases total funding by 6 percent, or $10.7 
million, over fiscal year 2007 enacted levels.
    The majority of the requested increase, $6.2 million, would enable 
us to absorb salary and General Schedule cost increases without 
curtailing program services. The Community Supervision Program requests 
an additional $2.1 million adjustment to base to achieve full 
implementation of a major program enhancement, our residential Reentry 
and Sanctions Center (RSC). This increase will allow us to open the 
RSC's final unit, making the program model, which emphasizes intensive 
assessment, case planning, and treatment readiness services, available 
to the female offender population. We look forward to having all six 
units in operation.
    The RSC is a tremendous resource for CSOSA, enabling us to provide 
reentry programming for high-risk offenders at the point of release, 
thereby increasing the likelihood that they will succeed in the 
community. This program is also available to high-risk defendants on 
pretrial release. Most individuals who complete the program then enter 
CSOSA's substance abuse treatment continuum. They often require 
placements in residential, transitional, and outpatient services to 
complete treatment. CSOSA continues to look at ways to maximize 
treatment efficiency and ensure that we make as many successful 
placements as possible.
    The RSC also facilitates our quick response to defendants' and 
offenders' non-compliant behavior before it escalates and leads to new 
criminal activity. Research tells us that timely intervention and 
consistent sanctions are critical to effective community supervision. 
With the RSC, CSOSA has greatly increased its capacity to provide both.
    When Congress passed the Revitalization Act in 1997, one of the 
most distressing conditions facing the new agency was the high 
caseloads carried by D.C.'s probation and parole officers. In many 
instances, these caseloads, often exceeding a hundred cases per 
officer, prohibited meaningful levels of contact and monitoring. 
Probation and parole officers could often do little more than check for 
new warrants and process paperwork. Meaningful assessment, referrals to 
treatment and other services, and field visits were virtually 
impossible.
    The Community Supervision Program therefore made lower caseloads 
its first priority. General supervision caseloads have been lowered to 
the 50 cases per officer recommended by the American Probation and 
Parole Association. Specialized caseloads, for higher-risk offenders or 
those with significant mental health issues, are even lower.
    These lower caseloads, coupled with improved technology, have 
enabled our officers to implement a level of intervention that was 
previously unthinkable. In fiscal year 2006, Community Supervision 
Officers partnered with Metropolitan Police Department (MPD) officers 
on over 7,000 joint field visits, or accountability tours, monitoring 
over 4,000 high-risk cases. This year, we also implemented an automated 
assessment instrument that uses over 200 separate data elements, 
collected during an in-depth interview with the offender, to measure 
and score the offender's risk level. This data informs a prescriptive 
supervision plan that addresses each offender's programming needs. 
Without this level of contact or knowledge, we cannot hope to achieve 
our long-term goal of substantially reducing recidivism among the 
15,000 offenders we supervise, of whom 6,300 are classified as high-
risk. Lower caseloads are the baseline condition necessary for us to 
achieve our public safety mission.
    The high-risk defendants under PSA's supervision pose a similar 
risk to public safety. PSA supervises or monitors approximately 5,500 
men and women every day. Approximately 3,500 of them are assigned to 
PSA's General Supervision Units. In fiscal year 2006, many Pretrial 
Supervision Officers (PSOs) in those units carried an average caseload 
of 115 defendants--significantly above the level at which probation and 
parole caseloads were once deemed too high to maintain meaningful 
supervision.
    Defendants released to General Supervision have been charged with a 
range of offenses. In fiscal year 2006, 28 percent of those cases were 
charged with crimes that are statutorily defined as dangerous and/or 
violent; 37 percent were charged with crimes against persons. Even 
though many of these defendants are potentially eligible for pretrial 
detention, the Court has determined that initial, supervised placement 
in the community is appropriate. In making that determination, however, 
the Court expects that supervision will occur, conditions of release 
will be enforced, and non-compliance will be reported promptly.
    With the current high caseload ratios, PSA is not able to provide 
the supervision that the Court expects. In fiscal year 2006, 48 percent 
of defendants released with drug testing conditions were non-compliant 
three or more times. Each of these violations warranted a response by 
the PSO. With such high caseloads, PSOs often cannot respond quickly, 
despite the statutory requirement that every violation be reported to 
the prosecutor and the Court.
    PSA data from fiscal year 2004 reveals that timeliness is 
particularly important when the defendant has a history of domestic 
violence. Of 400 defendants with domestic violence charges who were 
rearrested while on pretrial release, about a third were rearrested for 
another domestic violence incident. These rearrests also tended to 
occur earlier in the supervision period than rearrests of defendants 
with other charges.
    PSA requests $1.6 million and 9 FTE to lower its General 
Supervision caseloads to 75 defendants per PSO. While still higher than 
neighboring jurisdictions, this caseload will facilitate closer 
supervision and more timely response to infractions. Nationwide, 
federal pretrial supervision caseloads range from 40 to 75 cases per 
officer. Defendants prosecuted in the District of Columbia typically 
have more extensive prior criminal records than do defendants in 
federal courts, and are often in need of employment, education, and 
treatment services. Effective supervision of these defendants cannot 
take place with caseloads higher than 75 cases per officer.
    Technology is an essential component of effective supervision and 
can greatly improve the officer's ability to monitor behavior. PSA also 
requests $768,000 and 3 FTE to expand technological tools available to 
Pretrial Service Officers. This request would fund the addition of 
wireless cellular and Global Positioning Systems (GPS) monitoring to 
PSA's existing electronic monitoring program. These two newer, more 
effective technologies are currently being used in many jurisdictions 
to monitor defendants who cannot be effectively supervised using 
traditional electronic monitoring. Wireless cellular technology extends 
this type of monitoring to defendants who do not have a hard wired home 
telephone. GPS monitoring would allow PSA to quickly determine the 
location of a defendant at any time as well as track his or her 
movement. In addition, GPS monitoring can be used to notify the 
authorities when a defendant enters restricted areas, such as schools, 
known drug areas, or a victim's neighborhood, in violation of the 
court's orders. Combining reduced caseloads with technological 
enhancements will enable PSA to achieve maximum efficiency in the 
supervision of high-risk defendants. GPS supervision has proven very 
effective in the Community Supervision Program, where it is primarily 
used as a short-term sanction for high-risk offenders.
    Since becoming a federal agency in August 2000, CSOSA has 
transformed community supervision in the District of Columbia. Using 
best practices, advanced technology, and wide-ranging collaborations, 
we are helping the men and women we supervise to change their lives. In 
doing so, we make a positive impact on our city and our field. People 
are hearing our message: After CSOSA's presentation on partnerships at 
last summer's Black Police Association International Education and 
Training conference, a delegation from the United Kingdom's National 
Probation Service arranged to spend a week with us. They have taken our 
program model back home to Manchester, England, to inform how community 
supervision occurs there.
    We look forward to demonstrating the results of our efforts. We 
will soon complete our initial three-year recidivism study. Later this 
spring, we will implement a performance accountability system modeled 
on New York State's ``Parole Stat.'' We recently completed the first 
phase of a comprehensive study of our supervision practices. And we 
continue to work with our partners in implementing new and promising 
strategies: Through the Criminal Justice Coordinating Council, we are 
currently working with the U.S. Marshals Service, the U.S. Parole 
Commission, the D.C. Superior Court, the U.S. Attorney, the MPD, and 
the Washington faith community to bring Fugitive Safe Surrender to our 
city. This program, which has resulted in the surrender of thousands of 
fugitives with non-violent and misdemeanor warrants, has been 
successfully implemented in Cleveland and Phoenix, and is also planned 
for Indianapolis. I am committed to bringing it to the District of 
Columbia. Not only will it safely remove fugitives from our streets, it 
will also give many of these men and women the opportunity to reclaim 
their identities and re-enter their communities.
    As a young agency, we have made substantial progress, though much 
work remains to be done. Some critical elements of our infrastructure--
such as Information Technology (IT) disaster recovery, fully modernized 
personnel and financial information systems, and other enhancements 
necessary to ensure our full compliance with federal regulations--are 
still being implemented. We also face continued facilities challenges, 
particularly at 300 Indiana Avenue, the building we share with the 
Metropolitan Police Department. Addressing these issues is essential to 
our continued maturation as an agency.
    In 1997, the District of Columbia faced a community supervision 
system that was overburdened and under-resourced. We have revived that 
system, turning the nation's capital into a national leader. Our fiscal 
year 2008 budget enables the continued implementation of these proven 
strategies. We look forward to the subcommittee's support of this 
request.

    Senator Durbin. Ms. Buchanan.

STATEMENT OF AVIS E. BUCHANAN, ESQ., DIRECTOR, PUBLIC 
            DEFENDER SERVICE
    Ms. Buchanan. Good afternoon, Mr. Chairman. My name is----
    Senator Durbin. If you'll make sure you activate the mic, 
thank you.
    Ms. Buchanan. Thank you. Good afternoon, Mr. Chairman. My 
name is Avis Buchanan and I have the honor of serving as the 
Director of the Public Defender Service for the District of 
Columbia. I come before you today to provide testimony in 
support of PDS's fiscal year 2008 budget request.
    The Public Defender Service for the District of Columbia, 
or PDS, is an independent legal organization governed by a 
Board of Trustees. PDS is widely recognized as one of the best 
public defender offices in the country and is, in my humble 
opinion, the best.
    In the District of Columbia both PDS and the local courts 
separately provide constitutionally mandated defense 
representation to people who cannot afford to pay for their own 
attorney. Under the District's Criminal Justice Act, the courts 
appoint PDS generally to the more serious, more complex, more 
resource intensive and time consuming criminal cases.
    The courts assign the remaining, far more numerous but less 
serious cases and almost all of the misdemeanor and traffic 
cases, to a panel of approximately 350 prescreened private 
attorneys who was appointed to cases under the District's 
Criminal Justice Act and who are known as CJA attorneys. This 
dual system of representation is used in the Federal criminal 
justice system and is the model favored by the American Bar 
Association as an effective and cost efficient system.
    Approximately 110 staff attorneys at PDS and a similar 
number of administrative staff represent children and adults in 
the most serious felony cases, criminal appeals, serious 
delinquency cases, parole revocation matters, involuntary civil 
commitment cases in the mental health system and the Superior 
Court's Drug Court Treatment Program.
    Our fiscal year 2008 budget request parallels our request 
for fiscal year 2007: $32.7 million or 5 percent above the 
enacted level for fiscal year 2007, which was a level of $30.9 
million.
    With these funds PDS will absorb salary and inflationary 
increases to continue to improve our human capital management 
and comply with the D.C. Court of Appeals' request to do more 
to help reduce the backlog of cases pending before that court--
all while sustaining the high quality advocacy that the 
criminal justice system is accustomed to seeing from PDS.

                        FAVORABLE SURVEY RESULTS

    PDS's fiscal year 2006 accomplishments are exemplified in 
the results of two surveys PDS conducted as part of its 
strategic planning work.
    During fiscal year 2006, we asked our counterparts in the 
CJA bar and some of our clients about their opinions of the 
quality of PDS's representation. Of the CJA bar respondents, 95 
percent agreed that PDS attorneys provide and promote quality 
representation to indigent adults and children facing a loss of 
liberty. Ninety-three percent agree that PDS promotes society's 
interest in the fair administration of justice. Over 90 percent 
agree that the training PDS provides to the CJA bar is 
effective and relevant to defending their clients.
    The client survey yielded one particularly compelling 
comment, slightly edited for clarity.

    ``To give you a sense of just how satisfied I am with the 
D.C. PDS, you must understand that I was convicted of three 
life offenses. I will most likely die in prison. I know that 
most clients cannot appreciate just how good the quality of PDS 
is. Had I been a rich man, if I'd had an obscene amount of 
money to pay a WASPy, white shoe firm, I could not have gotten 
a better defense. I was defended with an aggression by lawyers 
that showed a range and depth of knowledge and experience that 
I had never before witnessed in a member of the civil 
service.''

    These survey results are consistent with the results of a 
survey of local, trial, and appellate judges that PDS conducted 
in 2004. One appellate judge wrote, ``Of all the litigants' 
counsel to come before the Court of Appeals on a regular basis, 
PDS lawyers are uniformly better. They give this judge, and I 
believe all judges, a sense that their clients are soundly and 
zealously represented while giving the court considered legal 
arguments. If I were facing prosecution in the District, I 
would want PDS to represent me.''
    I continue to be proud of the extraordinary work the staff 
of PDS has done in service to our clients. I would like to 
thank this subcommittee and the chairman for your time and 
attention to these matters and for your support of our work in 
the past.

                           PREPARED STATEMENT

    I would be happy to answer any questions the subcommittee 
may have. Thank you.
    Senator Durbin. Thank you.
    [The statement follows:]

                 Prepared Statement of Avis E. Buchanan

    Good afternoon Mr. Chairman and members of the Subcommittee. My 
name is Avis E. Buchanan, and I am the Director of the Public Defender 
Service for the District of Columbia (PDS). I come before you today to 
provide testimony in support of PDS's fiscal year 2008 budget request. 
We thank Subcommittee members for their support of our programs in 
previous years.
    With fiscal year 2006, the Public Defender Service added another 
year of providing excellent defense representation to people in the 
District of Columbia. Since 1970, when PDS was established as a model 
public defender serving in the newly created District of Columbia 
Superior Court, PDS has developed and maintained a reputation as the 
best public defender office in the country--local or federal. PDS has 
become the national standard bearer and the benchmark by which other 
public defense organizations often measure themselves in a number of 
practice and administrative areas.
    In fiscal year 2008, PDS plans to work with the District of 
Columbia Court of Appeals to reduce the court's backlog of criminal 
appeals, continue to support PDS's human capital improvement plans, and 
continue to better assess its baseline costs.
    PDS's fiscal year 2008 budget request supports PDS's human capital 
improvement plans by seeking a budget that keeps pace with inflationary 
increases and yet allows for PDS to build modestly on its human capital 
plans. PDS requests $32,710,000, a ``flat'' budget as compared with the 
President's fiscal year 2007 request,\1\ to permit the office to 
maintain fiscal year 2007 salary levels and most costs associated with 
inflation. PDS's fiscal year 2006 budget was slightly lower than the 
level of the President's fiscal year 2005 budget request; with this 
essentially ``flat'' fiscal year 2006 budget, PDS focused on increasing 
and improving its internal efficiencies and maintained stable staffing 
levels.
---------------------------------------------------------------------------
    \1\ The President's fiscal year 2007 budget request would have 
provided $32,710,000 for PDS. In February 2007, Congress funded PDS for 
the remainder of fiscal year 2007 at the level of $30,898,000, plus 50 
percent of the Cost of Living Allowance, for an effective fiscal year 
2007 budget of $31,103,000.
---------------------------------------------------------------------------
                               BACKGROUND

    In 1997, Congress enacted the National Capital Revitalization and 
Self-Government Improvement Act of 1997 (the Revitalization Act),\2\ 
which relieved the District of Columbia of certain ``state-level'' 
financial responsibilities and restructured a number of criminal 
justice functions, including representation for indigent individuals. 
The Revitalization Act instituted a process by which PDS submitted its 
budget to Congress and received its appropriation as an administrative 
transfer of federal funds through the Court Services and Offender 
Supervision Agency (CSOSA) appropriation. The President's fiscal year 
2008 budget requests that PDS receive a direct appropriation from the 
Congress. In accordance with its enabling act, PDS remains a fully 
independent organization and does not fall under the administrative, 
program, or budget authority of CSOSA. Rather, due to the 
constitutional mandate it serves, PDS necessarily maintains a separate 
and distinct mission from the missions of CSOSA and the Executive 
Branch.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 105-33, Title X (1997).
---------------------------------------------------------------------------
    In the District of Columbia, PDS and the local District of Columbia 
courts share the responsibility for providing constitutionally mandated 
defense representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA),\3\ the 
District of Columbia courts appoint PDS generally to the more serious, 
complex, resource-intensive, and time-consuming criminal cases. The 
courts assign the remaining, less serious cases and most of the 
misdemeanor and traffic cases to a panel of approximately 350 pre-
screened private attorneys (``CJA attorneys'').\4\ Approximately 110 
PDS staff lawyers are appointed to represent: the majority of people 
facing the most serious felony charges; a substantial number of 
individuals litigating criminal appeals; a significant number of the 
children facing serious delinquency charges; nearly 100 percent of 
people facing parole revocation; and the majority of people in the 
mental health system who are facing involuntary civil commitment.
---------------------------------------------------------------------------
    \3\ D.C. Code 11-2601 et seq. (2001 Ed).
    \4\ An additional 75 CJA attorneys handle juvenile matters.
---------------------------------------------------------------------------
    While much of our work is devoted to ensuring that no person is 
ever wrongfully convicted of a crime, we also provide legal 
representation to recovering substance abusers participating in the 
highly successful Drug Court treatment program, and to children in the 
delinquency system who have learning disabilities and require special 
educational accommodations under the Individuals with Disabilities in 
Education Act.\5\
---------------------------------------------------------------------------
    \5\ 20 U.S.C.  1400, et seq.
---------------------------------------------------------------------------
    The Public Defender Service, unique among local public defender 
offices in that it is federally funded, has always been committed to 
its mission of providing and promoting constitutionally mandated legal 
representation to adults and children facing a loss of liberty in the 
District of Columbia who cannot afford a lawyer, and PDS has had 
numerous significant accomplishments in pursuit of that mission. In 
addition, PDS has developed innovative approaches to representation, 
from instituting measures to address the problems of incarcerated 
clients who are returning to the community to creating a one-of-a-kind 
electronic case tracking system. Other public defender offices across 
the country have sought counsel from PDS as they have patterned their 
approach to their work after ours.
    As part of its statutory mission to promote quality criminal 
defense representation in the District of Columbia as a whole, PDS 
continues to provide training for other District of Columbia defense 
attorneys and investigators who represent those who cannot afford an 
attorney, and to provide support to the District of Columbia courts.

                        FISCAL YEAR 2008 REQUEST

    The Public Defender Service's fiscal year 2008 budget request is 
for funding at the same level as that contained in the President's 
fiscal year 2007 request, or $32,710,000. PDS's actual apportionment 
under the full year fiscal year 2007 Continuing Resolution is five 
percent lower at $31,103,000. PDS's fiscal year 2008 request requires 
that PDS absorb normal and customary business cost increases and new 
costs not previously identified as part of base level funding. This 
will be the second time within four years that PDS has requested to 
manage to an essentially flat budget: in fiscal year 2006, PDS proposed 
retaining a budget level of $29,535,000 that was slightly lower than 
the fiscal year 2005 enacted level of $29,594,000, net of rescissions. 
While managing in fiscal year 2008 to a budget level that is flat with 
the President's fiscal year 2007 budget will present a challenge for 
PDS, PDS believes it can accomplish this without adversely impacting 
the constitutionally mandated legal services it provides to individuals 
in the District of Columbia.

                         PDS'S IMMEDIATE NEEDS

    PDS faces two major challenges over the next several years that 
require planning and flexibility:
  --Escalating Baseline Costs.--PDS has been assessing and evaluating 
        the true cost of its base funding since the passage of the 
        Revitalization Act. In fiscal year 2008, PDS will have to 
        absorb several items beyond its control that have not been 
        previously included in PDS's base. For example, it has been 
        determined that, starting in fiscal year 2008, as a federally 
        funded entity, PDS must comply with the Federal Employees' 
        Compensation Act (FECA).\6\ The law requires that the 
        Department of Labor (DOL) submit a bill to each federal entity 
        for the program liability that will occur in future years. PDS 
        has received notice from DOL that PDS's FECA liability payment 
        for fiscal year 2008 will be $130,000. Another cost beyond 
        PDS's control is the cost of transcription services. Recordings 
        must be reduced to transcripts for use in court proceedings. As 
        law enforcement and the government rely increasingly on 
        digitally recorded evidence, PDS's transcription costs will 
        soar. PDS saw the first indications of this change in a recent 
        case in which the transcription costs were $15,000. This change 
        is estimated to increase PDS's transcription costs by $100,000 
        annually by fiscal year 2008. A final example is the cost of 
        mileage reimbursements. PDS is constitutionally required to 
        investigate cases and meet with clients. Pre-trial case work 
        requires investigators to travel many miles around the D.C. 
        metropolitan area locating and speaking with witnesses, and 
        meeting clients often requires trips to prison facilities 
        throughout the mid-Atlantic region. The rate of reimbursement 
        for mileage is not within PDS's control and is likely to be 
        substantially higher in fiscal year 2008 than the current rate.
---------------------------------------------------------------------------
    \6\ 5 U.S.C.  8147 (1993).
---------------------------------------------------------------------------
  --Appellate Workload.--PDS is under unusual pressure from the 
        District of Columbia Court of Appeals to expand its Appellate 
        Division staff to help the Court meet its performance goal of 
        reducing the time required to resolve cases. PDS has responded 
        by hiring three new appellate attorneys (two of whom will be 
        brought on board toward the end of this fiscal year), but is 
        constrained by space limitations to respond further. This 
        solution cannot be sustained over the long term, and PDS has no 
        reasonable expectation that this workload pressure will abate.
    Despite these challenges, PDS believes it can manage to a 
restricted budget in fiscal year 2008. PDS plans to manage hire lag so 
that vacancies will not jeopardize client representation, but will 
generate savings in salary to help offset the usual labor cost 
increases expected in fiscal year 2008 and the increases in non-
discretionary fixed costs (e.g., rent, litigation costs). By 
incorporating a longer hiring lag, by keeping about 10 positions 
unfilled, and by controlling costs, PDS will manage to the requested 
$32,710,000 that matches the fiscal year 2007 budget request.
    Any reduction in funds from the President's fiscal year 2008 budget 
request for PDS however, will directly impact services. PDS's budget 
line items are fixed, with little flexibility on the part of PDS to 
decrease spending. In PDS's fiscal year 2008 budget request, 77 percent 
is allocated to personnel and related benefit costs ($25,295,000 out of 
$32,710,000). Of the $7,415,000 budgeted for non-personnel budget 
costs, approximately 95 percent consists of fixed costs (e.g., rent, 
utilities, payroll and financial services, equipment maintenance and 
licensing, litigation costs). PDS has no capital expenditures and 
spends relatively little on training and conferences, outside travel, 
and library materials. Reductions in litigation expenditures impact the 
quality of the representation provided. Reductions in the already small 
non-lawyer professional staff impact PDS's ability to manage the 
organization efficiently and effectively. PDS cannot, as many agencies 
can, detail individuals from other divisions to fill the gap. 
Reductions in front line staff (e.g., lawyers, investigators) lower the 
number of cases PDS can manage and simply shift the burden for 
supplying these constitutionally mandated services to the court's 
Criminal Justice Act budget. Of the approximately 110 lawyers at PDS, 
only six do not handle any individual cases. All supervisors, most 
division chiefs, and even some of the executive staff handle cases 
along with their supervisory and administrative responsibilities.
    As detailed below in the accomplishments section, PDS plays a 
critical role in ensuring that all persons in the District of Columbia 
criminal courts receive due process. Failure to provide this 
fundamental right undermines the public's confidence in the criminal 
justice system and leads to wrongful convictions. While PDS's budget is 
a fraction of the cost of the entire criminal justice system in the 
District of Columbia, the high quality of PDS's performance is 
recognized by all the participants in the criminal justice system. The 
District of Columbia Court of Appeals and the Superior Court for the 
District of Columbia not only recognize this performance; \7\ they rely 
on it in countless serious cases. Diminishing PDS's capacity to provide 
representation to those who cannot afford counsel would diminish 
justice in the District of Columbia.
---------------------------------------------------------------------------
    \7\ Just recently, a senior judge on the D.C. Court of Appeals 
commented at the close of an oral argument that a junior PDS attorney's 
rebuttal argument was the best that the senior judge had ever heard.
---------------------------------------------------------------------------
                    FISCAL YEAR 2006 ACCOMPLISHMENTS

    As in previous years, PDS devoted substantial resources toward the 
majority of the most serious cases filed in the Superior Court's 
Criminal Division. In fiscal year 2006, PDS was assigned to 77 percent 
of the Felony One cases and to 65 percent of the Accelerated Felony 
Trial Court (AFTC) cases. Felony One cases include all homicides, and 
AFTC cases include all while-armed offenses that carry potential life 
sentences and are to be tried within 100 days. In another of PDS's key 
practice areas, mental health matters, PDS was appointed to 63 percent 
of the involuntary commitment cases filed in the District of Columbia.
    As part of its long-term human capital strategy, PDS has engaged 
the services of a consultant to assist in evaluating PDS's compensation 
and performance evaluation practices with the goal of maintaining the 
current culture of excellence and collaboration while updating and 
expanding the options available to PDS managers and improving the link 
between compensation and individual performance. Pursuant to this 
process, PDS laid the groundwork for adopting an improved salary scale 
for all PDS employees. Also, PDS has successfully transitioned to 
working with a new payroll service provider. The conversion has vastly 
improved record keeping. In addition, PDS has conducted two first-ever 
surveys--one survey of clients and one of CJA attorneys--in support of 
PDS's strategic plan and annual performance plan.

                    GENERAL PROGRAM ACCOMPLISHMENTS

Collaborative Work
    While well-respected and widely known for zealously advocating on 
behalf of clients in the criminal justice system's adversarial process, 
PDS also works closely with criminal justice agencies and the courts to 
make the criminal justice system function more efficiently and fairly.
    Collaborative work, essential to an efficient and fair criminal 
justice system, can pose obstacles to a legal entity such as PDS 
because PDS must always be mindful of its professional obligation to 
individual clients. PDS cannot waive any current or future client's 
right to assert a particular position or challenge a procedure. This 
can be frustrating to criminal justice agencies that are not similarly 
constrained. In addition, PDS's collaboration is often with traditional 
adversaries that view PDS with suspicion. Nonetheless, PDS continues to 
collaborate, producing both large and small changes that improve the 
criminal justice system.
    ``Safe Surrender'' Warrant Resolution Program.--During the past 
fiscal year, PDS has worked with a number of District of Columbia 
criminal justice agencies, both local and federal, to plan for the 
institution of the ``Safe Surrender'' program--a program that 
encourages individuals with outstanding arrest warrants and bench 
warrants to turn themselves in exchange for favorable consideration by 
the court. Initiated by the U.S. Marshals Service in Ohio to minimize 
the danger to law enforcement officers of locating and arresting these 
individuals, the program limits participation to those with less 
serious charges. The program collaborates with the faith-based 
community by obtaining the permission of a local church to use its 
facility as the site for implementation.
    Health Care Decisions for People with Mental Retardation or Mental 
Illness.--In fiscal year 2006, PDS led an effort to bring together the 
D.C. Council, the Office of the Mayor, the Office of the Attorney 
General, and a number of non-governmental organizations to improve the 
District's approach to substituted decision-making on behalf of persons 
without family support who lack the capacity to make their own health 
care decisions. PDS has represented many clients in the criminal 
justice system, in the juvenile delinquency system, and in the mental 
health system who were incapable of making medical decisions and who 
had no family. As a result, PDS has developed some expertise securing 
medical treatment for these disadvantaged clients. The District's law, 
which, for years, had been passed repeatedly on an emergency basis, 
permitted the District to make health care decisions for individuals 
with mental retardation, without regard to the individual's capacity to 
make those decisions. The District had proposed creation of a 
complicated and resource-intensive process that required the 
development of a panel to determine the capacity of a person with 
mental retardation to make urgent health care decisions and then to 
decide on behalf of anyone found incapacitated, whether or not to 
consent to the urgent medical procedure.\8\ Based on the experiences of 
PDS lawyers working on behalf of clients with mental retardation and 
clients with mental illnesses, PDS knew this approach would be unwieldy 
and would compromise the health and the decision-making rights of PDS's 
clients. PDS proposed, and the group adopted, legislation modifying the 
Health-Care Decisions Act, the laws governing the provision of services 
to people with mental retardation, and the guardianship laws to create 
an expedited process for the courts to appoint a temporary and limited 
guardian to address medical decisions in appropriate cases where a 
person has been deemed incapacitated under the Health-Care Decisions 
Act. Enactment of this legislation on a temporary basis late last fall 
has streamlined and improved the decision-making in urgent and routine 
medical treatment for some of the District's most vulnerable residents.
---------------------------------------------------------------------------
    \8\ Emergency medical situations already have streamlined 
procedures in place.
---------------------------------------------------------------------------
Other Program Accomplishments
    PDS engaged in a number of activities during the past fiscal year 
that had significant implications for individual clients or that 
improved the overall administration of justice.
            Individual Clients
    The core work of PDS is the representation of individual clients 
facing a loss of liberty. The criminal justice system is premised on an 
adversarial system, and PDS has able adversaries in the District's 
Attorney General's Office and the United States Attorney's Office for 
the District of Columbia. A fair criminal justice system depends on 
having all components (judges, government, and defense) fulfill their 
respective roles. PDS plays a pivotal part in ensuring that all cases, 
whether they result in pleas or trials, involve comprehensive 
investigation and thorough consultation with the client, and that the 
trials constitute a full and fair airing of reliable evidence. As it 
has every year since its inception, PDS won many trials in fiscal year 
2006, fought a forceful fight in others, and found resolution prior to 
trial for many clients. Whatever the outcome, PDS's goal and 
achievement for each client was competent, quality representation.
    All of these cases and their outcomes are far too varied and 
numerous to recount here, and the ethical rules that protect all 
clients' confidences, regardless of their economic circumstances, 
preclude PDS from providing detailed examples. Instead, the following 
cases, absent identifying information, are a small sample of how 
competent, quality representation can change lives.
    Unlawful Detention.--In a case of mistaken identity, PDS obtained 
the release of a man who was unlawfully held at the D.C. Jail for two 
weeks for an offense he did not commit. The Community Defender Division 
(CDD) intervened to convince officials at the D.C. Jail and at the U.S. 
Marshals Service to release the client. The client had been detained by 
Maryland police authorities during a routine traffic stop. The police 
conducted a computer records check which revealed that a warrant had 
been issued in the District for someone with the same name as the 
client who had reportedly escaped from a halfway house in 2004. The 
client was arrested in Maryland and shortly thereafter was transported 
by the U.S. Marshals Service to the D.C. Jail, where he waited to be 
returned to the custody of the Bureau of Prisons because of his alleged 
abscondance from Hope Village.
    The client explained to the police, to the U.S. Marshals Service, 
and, eventually, to D.C. Jail officials that although he had served 
time in a Federal Bureau of Prisons facility, he had never been placed 
in a halfway house before, and he insisted that he had not been re-
arrested since his release in 2005. Furthermore, the client told 
officials that someone had earlier stolen his ID card and that he had 
been the subject of a case of mistaken identity in the past. Even after 
the face of the person who had actually absconded from the halfway 
house appeared on the D.C. Department of Corrections computer database, 
D.C. Jail staff simply exchanged the client's picture with the one 
already in the database, effectively placing a charge on his record 
that he did not commit.
    The client's mother complained to PDS's CDD staff, frustrated 
because for two weeks, she had been trying to convince D.C. Jail 
officials that they were holding the wrong man. CDD staff interviewed 
the client at the jail and performed a records search. CDD staff 
determined that the client could not have been the person who had 
absconded in 2004 because the client had been serving his Federal 
Bureau of Prisons sentence at the time; the client was released from 
the D.C. Jail within 24 hours of when CDD staff began investigating the 
matter.
    Elderly Veteran.--A 70-year-old veteran was charged with losing 
contact with his parole officer and faced a parole revocation hearing 
as a result. The client, who has no family, is partially blind and 
partially deaf, has severe and numerous disabling medical conditions, 
and cannot walk unassisted. During one of his hospital stays, his 
rooming house was sold. When he was released, he had no place to stay 
and would sleep wherever he could. Homeless and ailing, he stopped 
going to meet with his parole officer who then issued a parole 
violation warrant for the client's arrest. He was held at the D.C. Jail 
pending his parole revocation hearing. Before his hearing, his PDS 
attorney and program developer collected volumes of medical records 
from the Veterans Administration, made appropriate referrals, and set 
up services that would allow him to function independently in the 
community. PDS even arranged for transportation to his new residence in 
the event that the U.S. Parole Commission decided to release him. After 
his hearing, not only was the client released, his case was closed--
implicit acknowledgment that the client's and the community's interests 
were better served by the services PDS arranged than by those that the 
U.S. Parole Commission could provide.
    Disabled Children.--A trial attorney's newly arrested 13-year-old 
client did not know his mother's phone number (or the phone number for 
any relative whatsoever), or even how to spell his mother's name. He 
could not give any contact information to the police or to the court 
besides an address. The client's mother had only a cell phone, and no 
home phone. On the morning of the client's first appearance in juvenile 
court, the trial attorney called another PDS trial attorney at home to 
ask her if she could think of a way to get in touch with the client's 
mother. The second attorney volunteered to drive to the mother's house 
and see if she was home, and to bring her down to court if she was.
    The initial (release) hearing started, and the court's Social 
Services department and the prosecutor both recommended placing the 
client in secure detention, in part because of the lack of information 
about the client's social history and the fact that no parent was 
present. The client was crying and asking his attorney where his mother 
was. The court refused the trial attorney's request for a very short 
delay to allow her to find the client's mother. Because of the client's 
age, the court was disbelieving when the trial attorney explained that 
the client did not know his mother's phone number. During the hearing, 
the client's mother entered the courtroom. She had been worried all 
night because she had no idea where he was. She had been about to call 
the police when the second PDS trial attorney came to the house looking 
for her. The mother was able to explain to the court that her son is 
severely limited mentally and that he had trouble remembering her phone 
number despite her repeated efforts to teach him. The court released 
the client to his mother.
    Discovery Litigation.--Over the past fiscal year, PDS lawyers have 
continued to monitor the government's compliance with its obligations 
to disclose Brady \9\ evidence--evidence that is favorable for or tends 
to exculpate the client. What constitutes Brady evidence and when that 
evidence must be disclosed to the defense are strenuously disputed 
issues in Superior Court. PDS is at the forefront of this litigation, 
which has produced success at the appellate court level and a number of 
acquittals and dismissals at the trial court level. PDS has filed 
dozens of pleadings in trial cases over the past year and was asked to 
file a ``friend of the court'' brief in an appellate case addressing 
Brady and the government's conduct in a specific case. The appellate 
decision resulted in further trial court proceedings concerning what 
exactly was suppressed by the government and whether its suppression 
affected the outcome of the trial; other trial level litigation has 
resulted in a number of acquittals and, on occasion, determinations by 
the government that the charges should be dismissed.
---------------------------------------------------------------------------
    \9\ Brady v. Maryland, 373 U.S. 83 (1963).
---------------------------------------------------------------------------
            Appellate Division
    The Appellate Division's appellate litigation has an impact 
throughout the District's criminal justice system as decisions in its 
cases often establish or clarify the standards trial court judges and 
litigants must follow in criminal and juvenile cases. The complex and 
novel legal issues the Division is called upon to address are handled 
by its experienced and talented attorneys.
    Changing the Law.--In fiscal year 2006, in Wilson-Bey v. United 
States, the D.C. Court of Appeals issued a landmark unanimous en banc 
(full court) decision changing the standard for accomplice liability in 
the District of Columbia and bringing it in line with the standard used 
in the federal courts and most states. In the District of Columbia, 
since the late 1970s, the Court's decisions have approved jury 
instructions stating that an accomplice is legally responsible for the 
``natural and probable consequences'' of the crime in which he 
intentionally participates. Since the early 1980s, PDS has argued in 
several cases that the Constitution requires that the government should 
have to prove the same intent element for an offense whether a 
defendant is charged as a principal or an accomplice. As PDS has 
argued, it is precisely when the defendant is merely an accomplice and 
did not commit the crime that the intent requirement becomes all the 
more important under traditional norms of criminal liability. In 
Wilson-Bey, PDS made this same argument as amicus curiae (friend of the 
court). The Court agreed with PDS and, in a scholarly 50-page opinion, 
unanimously held that the natural and probable consequences language 
erroneously omits the intent element of the offense charged, that the 
error is of constitutional magnitude, and that the government must 
prove all the elements of the offense, including premeditation, 
deliberation, and intent.
    Enforcing Constitutional Protections.--PDS recently argued 
successfully to the D.C. Court of Appeals in an amicus curiae (friend 
of the court) brief that there is no ``expert witness'' exception to 
the Confrontation Clause. In December 2006, the Court in Thomas v. 
United States \10\ held that a Drug Enforcement Agency (DEA) chemist's 
certified hearsay report is a paradigmatic ``testimonial'' document 
that clearly falls within the protections of the Sixth Amendment 
Confrontation Clause under the Supreme Court's watershed decisions in 
Crawford v. Washington \11\ and Davis v. Washington.\12\ In a lengthy 
and meticulously reasoned opinion, the Court traced the right of 
confrontation to its common-law roots and to the Framers' disdain for 
``trial by affidavit,'' the ``primary evil'' targeted by the 
Confrontation Clause. Given that the DEA chemist's certificate is an 
affidavit-like document produced in anticipation of its use in a 
criminal trial and is relied upon by the government to prove an 
essential element of the offense, the Court ``agree[d] with [PDS] that 
`it is difficult to imagine a statement more clearly testimonial.' '' 
The Court also held that a defendant's ability to subpoena the chemist 
and call him as a hostile witness in the defense case does not satisfy 
the Confrontation Clause under Crawford. The Court again relied on 
PDS's brief, reasoning that, ``[i]f the defendant exercises his 
constitutional right to put the government to its proof and not put on 
a defense, the prosecution evidence--what [PDS] aptly calls `the 
misleadingly pristine testimonial hearsay of absent witnesses' ''--may 
appear deceptively probative in the absence of cross-examination. 
Across the country, courts are considering the admissibility of various 
``expert reports'' without live testimony. The Thomas opinion will 
undoubtedly be highly influential, both because it so thoroughly 
addresses the issue and because the Court is so well-regarded 
nationally.
---------------------------------------------------------------------------
    \10\ Thomas v. United States, 914 A. 2d 1 (2006).
    \11\ Crawford v. Washington, 541 U.S. 36 (2004).
    \12\ Davis v. Washington, 126 S. Ct. 2266 (2006).
---------------------------------------------------------------------------
    Protecting Society's Interest in a Fair Trial.--In United States v. 
Mickens, PDS secured a remand from the D.C. Court of Appeals after a 
trial judge failed to interview a juror who sent a note during 
deliberations stating that the deliberations had deteriorated and that, 
as a result, he was unable to render a fair verdict. The Court of 
Appeals remanded the record to the trial judge so that he could do what 
he should have done before the verdict was taken and speak with the 
juror. At a hearing, the juror told the trial judge that the guilty 
verdict had been forced. The juror said he had agreed to a guilty 
verdict only because the foreperson had threatened him with physical 
violence and because the trial judge had ignored his pleas for help. In 
the end, the government dismissed the criminal charges, and PDS righted 
an injustice the juror had himself attempted to right some two years 
earlier.
    Protecting the Constitutional Right to Present a Defense.--The 
Appellate Division convinced the D.C. Court of Appeals that the trial 
court was wrong for refusing to admit testimony of a defense witness 
about an excited utterance made by the client. The client, after 
shooting a would-be robber in self defense, ran to his friend's house, 
``shaking,'' ``hysterical,'' ``scared,'' and ``terrified.'' He told his 
friend that someone had tried to rob him. The trial court ruled that 
the friend couldn't testify about this statement because, as the 
defendant's friend, he was too interested in the case.
    The Court of Appeals held that the trial court was wrong in 
declaring the friend unreliable and barring him from testifying, ruling 
that the trial court made it impossible for the defense to present 
evidence related to the client's actions in response to the attack. The 
Court held that the client was thus prevented from presenting evidence 
crucial to his case, reversed the decision, and remanded the case to 
the trial court.
            Special Litigation Division
    The Special Litigation Division litigates systemic issues in the 
District of Columbia criminal justice system before every court in the 
District of Columbia--the Superior Court and Court of Appeals in the 
local system, and the District Court, the Court of Appeals, and the 
Supreme Court in the federal system. These are some of the highlights 
of SLD's fiscal year 2006 litigation:
    Incarcerated Young Adults.--In J.C., et al. v. Vance, et al., the 
Special Litigation Division seeks to compel the District of Columbia to 
provide special education services to eligible youth incarcerated in 
the D.C. Jail and the Central Treatment Facility (CTF). A final 
settlement agreement was filed in federal district court at the 
beginning of the year. This settlement was effectively a total victory 
for plaintiffs--the District agreed to bring its special education 
program into compliance with federal law. The first phase of the 
settlement, which called for the District to draft a set of policies 
and procedures addressing all aspects of the program (including program 
funding, infrastructure, staffing, curriculum, student screening and 
evaluation, and interagency collaboration) is now complete, and the 
parties have moved on to the implementation phase of the program. The 
District has a year to fully implement its special education program at 
the D.C. Jail and CTF. PDS is monitoring the District's efforts to 
ensure that it honors its commitments.
    Incarcerated Children.--PDS has litigated the lawsuit challenging 
the juvenile detention system in the District, Jerry M., et al. v. 
District of Columbia, et al., for 21 years, and a resolution of the 
case continues to appear possible. The lawsuit and the resulting 
consent decree focus on the conditions of the juvenile detention 
facilities and on the treatment and rehabilitation provided to youths 
at the facilities to reduce their chances of re-offending and to 
increase their chances of becoming productive members of the community. 
Three years ago, PDS's Special Litigation Division asked the court to 
appoint a receiver to oversee the District's Youth Services 
Administration (now the Department of Youth Rehabilitation Services 
(DYRS)) until the consent decree's mandates could be met. While the 
request was pending, the parties agreed to the appointment of a Special 
Arbiter in lieu of a receiver to bring the District into compliance by 
assisting the parties in creating a work plan to implement the consent 
decree. SLD and the District are now well on their way toward 
implementing a comprehensive work plan to address the systemic issues 
that have plagued the District's juvenile justice system for years. In 
the last two years since the Special Arbiter was appointed, the lawsuit 
has led to:
  --New Oak Hill Youth Center.--Plaintiffs and defendants worked with 
        the D.C. Council to introduce legislation that resulted in an 
        emergency bill to fast-track construction of the new facility. 
        Plaintiffs and DYRS are continuing to work with the architects, 
        who are national experts in the construction of juvenile 
        facilities, in addition to consultants from Missouri (see 
        below), and it appears that the facility that will replace the 
        current youth secure detention facility will not only be a 
        great improvement, but may be the premier juvenile facility in 
        the nation. It is set to open in April 2008.
  --Missouri Youth Services Institute.--Plaintiffs and the Special 
        Arbiter have worked with DYRS to hire consultants from the 
        Missouri Youth Services Institute (MYSI) to implement reform at 
        Oak Hill even before the new facility opens by equipping its 
        staff with the training and tools to function daily as 
        counselors, as opposed to correctional officers, and to operate 
        well-run treatment programs. MYSI is comprised of former 
        staffers who led what is widely regarded as the nation's model 
        juvenile institutional reform effort in Missouri. DYRS has now 
        opened four ``Missouri-style'' units at Oak Hill, and the 
        physical plant and the services for youth at Oak Hill have 
        dramatically improved. Through work with the court, the Office 
        of the Attorney General, and the MYSI staff, DYRS has now 
        successfully reduced the detained and committed populations 
        such that there are only approximately 70 youth at Oak Hill 
        (down from 260 in December 2004), all of whom are committed. 
        The approximately 80 detained youth are all currently housed at 
        the YSC (see below).
  --Youth Services Center.--Plaintiffs and the Special Arbiter also 
        secured the hiring of Earl Dunlap, founder and former Executive 
        Director of the National Juvenile Detention Association (NJDA), 
        to work with staff at the Youth Services Center to improve 
        safety, security, and operations. Mr. Dunlap and staff from 
        NJDA are playing a vital role in the efforts to equip YSC staff 
        with the skill set necessary to operate a safe and humane 
        juvenile detention center.
  --Evening Reporting Centers.--Plaintiffs have worked with DYRS to 
        open Evening Reporting Centers (ERCs) as alternatives to 
        detention, which has resulted in significantly reducing the 
        population of detained children. DYRS currently has two ERCs in 
        operation, one located in Ward 4 (serving youth from Wards 1, 
        2, and 4) and one in Ward 8 (serving youth from Wards 6, 7, and 
        8). ERCs are a very intensive form of community placement, 
        providing six hours of daily, face-to-face supervision by 
        adults for the youths ordered into the facilities.
  --Expert Services.--Plaintiffs and the Special Arbiter have worked 
        this past year on improving the quality-of-life and safety 
        issues at the facilities, and have worked with top experts to 
        prepare baseline reports on issues such as fire safety, 
        housekeeping, key control, and mental health. These have turned 
        into corrective action plans that have been filed with the 
        court and have been models for implementing serious reforms at 
        the institution. The parties are now awaiting the final 
        baseline report for medical services.
  --Educational Initiatives.--With help from the plaintiffs and the 
        Special Arbiter, DYRS successfully led a campaign to establish 
        an alternative education model to replace the traditional one 
        provided by D.C. Public Schools (DCPS). The Special Arbiter 
        helped facilitate communications between DYRS and DCPS that 
        helped produce an agreement for the replacement of the DCPS 
        model. The new model is designed specifically for youth in 
        secure custody and will include innovative and proven delivery 
        models by providers with knowledge and experience in working 
        with at-risk youth in the juvenile justice system. RFPs are 
        currently being reviewed, and a charter school will be taking 
        over the Oak Hill school in the fall of 2007.
            Community Defender Division
    The Community Defender Division assists children and adults who are 
confined in correctional facilities or who are returning to their 
communities after periods of incarceration.
    Expungement Summit.--In fiscal year 2006, PDS brought together 21 
service providers for its second Expungement Summit.\13\ Modeled after 
a successful program in Chicago, the Summit offered assistance to 
individuals with criminal records, determining whether the individuals 
might be successful in seeking to seal their arrest records and 
providing them with social services resources. Over 600 individuals 
participated, receiving assistance with job searches; interview skills; 
referrals for re-entry assistance, including the Work Opportunity Tax 
Credit; the Federal Bonding Program; disability benefits; public 
housing opportunities; and substance abuse treatment referrals. PDS not 
only collaborated with service providers, but also coordinated with the 
D.C. Council to create space at the Summit for the D.C. Council to hold 
a community-based hearing on proposed expungement legislation at the 
same location and same time as the Summit. PDS will continue to lead 
this collaborative effort to promote housing, gainful employment, and 
sound health care for ex-offenders returning to the District of 
Columbia.
---------------------------------------------------------------------------
    \13\ The service providers included Job Corps (Dept. of Labor); 
Jobs Partnership of Greater Washington; A-Men (Anacostia Men's 
Employment Network); Housing Counseling Services; EXCEL Institute; 
Neighborhood Legal Services Program (D.C.); D.C. Employment Justice 
Center; Washington Legal Clinic for the Homeless; the Better Way 
Program (Pilgrim Rest Baptist Church); Concerned Citizens on Alcohol 
and Drug Abuse (CCADA); D.C. Department of Employment Services (DOES) 
(Mobile Van); Samaritan Inns Intensive Recovery Program; D.C. Central 
Kitchen/Training Program; Healthy Babies Project (Mobile Van); D.C. 
Chartered Health Plan; Opportunities Industrialization Center for D.C.; 
Efforts; Court Services and Offender Supervision Agency; YouthBuild 
PCS; D.C. Prisoners Legal Services Project, Inc.; the Children's Law 
Center; D.C. Law Students in Court; and the University of the District 
of Columbia David A. Clarke School of Law.
---------------------------------------------------------------------------
    Re-entry Programs.--In fiscal year 2006, the Community Re-entry 
Program sponsored a day-long conference, ``Representing Combat Veterans 
in the Criminal Justice System,'' on providing assistance to veterans. 
The conference, which placed a special emphasis on veterans of the 
U.S.-Iraq war who are charged with criminal offenses, focused on the 
defenses and sentencing options available to them, and on the resources 
that are available for the health, employment, and education problems 
most encountered by veterans.
            Parole Division
    The Parole Division provides required representation to parolees 
facing revocation before the United States Parole Commission.\14\ This 
Division represents nearly 100 percent of the D.C. Code offenders 
facing parole revocation. Consistent with that, in fiscal year 2006, 
PDS handled over 95 percent of parole and supervised release 
revocations.
---------------------------------------------------------------------------
    \14\ The Revitalization Act shifted responsibility for D.C. parole 
matters from the D.C. Board of Parole to the United States Parole 
Commission. 28 C.F.R. 2.214(b)(1) and 2.216(f).
---------------------------------------------------------------------------
    Working with the U.S. Justice Department.--PDS's Parole Division 
continues to seek out areas of collaboration that will benefit 
individuals facing parole revocation. Most recently, PDS and the U.S. 
Department of Justice agreed to engage in ongoing discussions regarding 
revisions to the statute that governs proceedings before the U.S. 
Parole Commission. Because of the elimination of parole in the federal 
system, an increasing majority of the Commission's work consists of 
local District of Columbia matters as the number of federal parolees 
declines steadily. PDS's goal is to ensure that a new statute sets 
forth a fair and constitutional process for resolving matters before 
the Commission.
            Training
    PDS conducts and participates in numerous training programs 
throughout the year. The annual Criminal Practice Institute and the 
Summer Criminal Defender Training Program address the training needs of 
the court-appointed CJA attorneys and investigators. In fiscal year 
2006, PDS attorneys and investigators also taught sessions at many D.C. 
law schools and other institutions. PDS attorneys were also invited to 
teach elsewhere locally, including at the D.C. Bar, the National Legal 
Aid and Defender Association, and at D.C. law firms offering pro bono 
services in Superior Court cases.
    Visiting Chinese Lawyers.--PDS agreed to develop a modified version 
of its intensive training program for new PDS attorneys and of the 
accompanying training materials for lawyers visiting PDS from China. 
For two weeks, PDS provided these attorneys, working through 
translators, with lectures on criminal defense practice in the United 
States and with opportunities to participate in practical exercises in 
PDS's moot courtroom.
    Forensic Science Conference.--In the face of growing evidence that 
most wrongful convictions are based on erroneous eyewitness 
identifications, PDS's 2006 Forensic Science Conference, the fourth 
such conference, brought the latest social science research and experts 
in the field to Washington, D.C. The conference provided defense 
attorneys with the information and tools necessary to properly 
investigate cases, to guard against erroneous identifications, and to 
educate jurors and judges about pitfalls surrounding eyewitness 
identification procedures currently in use by many law enforcement 
agencies.
Administrative Accomplishments
    Relying more extensively on technology, PDS continues to strive to 
be a model public defender in its administrative operations as it is in 
its client representation. PDS has created greater links between its 
payroll and finance operations, and has responded to emphasis from 
Congress on continuity of operations plans and telecommuting by 
exploring ways of supporting employees away from their offices. PDS has 
invested in new technology in the form of both hardware and software 
that allow key staff to have secure access to electronic files and 
databases from remote locations. Also, in its ongoing efforts to adopt 
federal best practices, PDS continues to incorporate the principles of 
the Government Performance and Results Act in the management of the 
office.
    Continuity of Operations.--PDS has upgraded its continuity of 
operations plan to make it more comprehensive and to incorporate the 
capacity (e.g., Blackberrys and docking stations) PDS has provided to 
staff to obtain remote access to their case files and to relevant 
databases. Currently, key managers have access to electronic files and 
databases from remote locations, and all staff have remote access to 
electronic mail. PDS will continue to develop the ability to support 
the technology that provides flexibility in work location and work 
schedule for all key staff. PDS is also tracking the continuity of 
operations plans of the various criminal justice agencies that would 
have to collaborate in the event of a disruption to the criminal 
justice system as a whole.
    Government Performance and Results Act.--Consistent with its 
strategic plan and annual performance plan, PDS conducted its first-
ever client survey and its first-ever survey of CJA attorneys. These 
surveys are two of several--judicial, PDS employee, social service 
provider, CJA attorney, and client--that PDS plans to conduct regularly 
to assess its performance. Our strategic plan calls for the judicial, 
CJA attorney, and client surveys to be conducted on a staggered 
triennial schedule.
    The client survey was done on a pilot basis to test PDS's ability 
to locate and communicate with former clients, some of whom have moved 
and some of whom are incarcerated.\15\ The survey consisted of twenty 
questions that focused on issues such as client perceptions of PDS's 
attentiveness to clients and preparedness for court. The majority of 
the clients who responded agreed with statements such as, ``I felt my 
attorney was working hard for me,'' and ``[M]y PDS attorney was 
prepared to represent me before the D.C. judicial system, and ``[T]he 
PDS office staff treated me with respect and courtesy.''
---------------------------------------------------------------------------
    \15\ The difficulty PDS anticipated in surveying this group was 
confirmed by the fact that more than 50 percent of the surveys were 
deemed undeliverable to the clients' last known addresses.
---------------------------------------------------------------------------
    The eleven questions contained in the CJA bar survey related to the 
bar's assessment of PDS's effectiveness and to the quality and extent 
of PDS's support of the CJA attorneys. The survey responses reflected 
the value that the CJA bar places on the training PDS provides, and 
they identified areas where PDS can better serve those attorneys.
    Over 90 percent of the responding CJA attorneys generally agreed 
that PDS achieves its mission of providing and promoting quality 
representation to clients, protecting society's interest in the fair 
administration of justice, and providing helpful and relevant training 
to CJA attorneys. The survey revealed a definite interest among CJA bar 
members in having PDS use its website or other communication methods 
more frequently to provide regular updates on recent changes in 
criminal law and procedure.
    PDS's other performance measures include determining the rate at 
which clients are released pending their trial or hearing dates. 
Release is a goal of virtually every PDS client, and having a client in 
that status improves the staff's ability to prepare the case and 
represent the client overall. For fiscal year 2006, PDS had a target of 
having clients released in 65 percent of cases. PDS obtained clients' 
release in 62 percent of the cases.
    In addition, PDS measures the rate at which attorneys have their 
first substantive visits with their clients after appointment. PDS's 
expectation is that an attorney will meet with a newly assigned client 
as soon as possible. Building trust is key to developing a good 
attorney-client relationship, and meeting with a client right away is a 
fundamental step toward establishing that trust and creating a positive 
impression. Early meetings also assist the attorney with investigation, 
as leads get ``colder'' with time. While certain legitimate 
circumstances may interfere with an attorney's ability to see a client 
as soon as is preferable (e.g., the attorney may be in trial), PDS has 
nonetheless set a two-day standard for this to occur. For fiscal year 
2006, PDS had a target of having these initial meetings in 75 percent 
of the cases. PDS surpassed that target, achieving initial meetings 
within two days in 89 percent of the cases.

                               CONCLUSION

    I would like to thank the members of the Subcommittee for your time 
and attention to these matters. I would be happy to answer any 
questions the Subcommittee members may have.

    Senator Durbin. Ms. Gist.

STATEMENT OF DEBORAH A. GIST, STATE EDUCATION OFFICER, 
            GOVERNMENT OF THE DISTRICT OF COLUMBIA
    Ms. Gist. Good afternoon, Mr. Chairman, subcommittee, staff 
and guests. I'm Deborah Gist and I serve as the State Education 
Officer in the District of Columbia. I appreciate this 
opportunity to testify today on the success of one of our most 
valued programs in the District of Columbia, the D.C. Tuition 
Assistance Grant Program, or D.C. TAG.
    I'm here to present testimony in support of the President's 
fiscal year 2008 funding request and budget justifications for 
the D.C. TAG program. Let me say, for the record, how much 
Mayor Fenty and our community appreciate the past and continued 
support of the Senate Appropriations Committee and you, in 
particular, Mr. Chairman, for the D.C. TAG Program.
    The D.C. Tuition Assistance Grant Program deserves to be 
funded for fiscal year 2008 at the mark established by the 
President for two reasons. Because the District of Columbia 
counts on the funding to provide affordable college options to 
its residents and most importantly because the program is 
working.
    We are increasing the number of college going District 
residents. Simply put, the D.C. TAG Program levels the playing 
field by providing District residents with the same 
opportunities that high school graduates from around the 
country receive--the ability to pay for college at the in-State 
or near the in-State tuition rate.
    In fiscal year 2006, the State Education Office provided an 
average TAG award of $6,393 to more than 4,800 students. In the 
District of Columbia, graduating seniors have a single option 
for public higher education, the University of the District of 
Columbia.
    The university is a relatively young institution that 
celebrated its 30 year anniversary in 2006. While the 
university educates thousands of students every year, a single 
State school is not the solution for every student in the 
District of Columbia who wants to go to college.
    In every State in the Nation students are able to choose 
from among multiple public universities and colleges on 
multiple campuses. For example, neighboring Maryland has 14 4 
year public university campuses and 16 community colleges. 
State colleges and universities are well known for providing 
quality public education at an affordable price.
    The D.C. Tuition Assistance Grant Program provides this 
choice for the students in the District of Columbia. By 
bridging the gap between the in-State and out-of-State tuition 
rates so that students can attend colleges and universities in 
other jurisdictions at affordable prices.
    The TAG Program provides up to $10,000 per academic year, 
up to a lifetime maximum of $50,000 for District residents who 
have a high school diploma and start college by the age of 24. 
Additional options include up to $2,500 for community colleges, 
for historically black colleges, and universities--and for 
private universities in the D.C. metropolitan area.
    In 1999, prior to the existence of the D.C. TAG Program, 
District residents paid an average $7,890 annually to attend an 
institution of higher education--compared to a much more 
favorable national rate of $3,215 annually.
    As you well know Congress, therefore, passed the District 
of Columbia College Access Act and the D.C. TAG Program has 
received a great deal of bipartisan support since then. To 
date, including the current school year, the program has 
dispersed nearly $160 million to the benefit of over 11,000 
District residents.
    Since the inception of the D.C. TAG Program and the 2000/
2001 school year, the number of District of Columbia public 
school students who go on to attend an institution of higher 
education has doubled. That's a phenomenal achievement for a 
program that's only in its seventh year.
    Some characteristics of D.C. TAG Programs are as follows: 
38 percent of D.C. TAG grantees are the first in their family 
to attend a college or university.
    And I'll actually point out that this number has decreased 
because the more and more students that we're sending to 
college and their siblings are going as well, it used to be 
over 50 percent; 68 percent of awards are provided to students 
with very low or low income levels as defined by the estimated 
contributions families are expected to make to support their 
child's educational needs.
    The District of Columbia, like other governments across the 
country, is focused on encouraging as many of its residents as 
possible to go to college. Recent research suggests that only 
28 percent of jobs within the District of Columbia belong to 
District residents. This in large part is a result of the 
skills required to attain these jobs. In 2005, for example, 75 
percent of new jobs created required at least some 
postsecondary education.
    The D.C. Tuition Assistance Grant Program is a central 
component of the District's strategy to enhance college access 
and college degree attainment in the District of Columbia. As a 
result TAG is changing the way of life for an entire generation 
of District residents and I would like to ask this 
distinguished committee to fund the D.C. TAG Program for $35.1 
million for fiscal year 2008.

                           PREPARED STATEMENT

    I appreciate this opportunity and I look forward to 
answering your questions.
    [The statement follows:]

                 Prepared Statement of Deborah A. Gist

    Good afternoon, Mr. Chairman, members of the Senate Subcommittee on 
Financial Services and General Government, Committee staff and guests. 
My name is Deborah Gist and I serve as the State Education Officer in 
the Executive Office of the Mayor for the District of Columbia. I 
appreciate the opportunity to testify today on the success of one of 
our most valued higher education programs in the District of Columbia, 
the D.C. Tuition Assistance Grant (D.C. TAG or TAG) program. I am here 
to present testimony in support of the President's fiscal year 2008 
funding request and budget justification for the D.C. TAG program. Let 
me say for the record how much Mayor Fenty appreciates the past and 
continued support of the U.S. Senate and the Appropriations Committee 
for the D.C. TAG program.
    The D.C. TAG program deserves to be funded for fiscal year 2008 at 
the mark established by the President for two reasons: because the 
District of Columbia counts on the funding to provide affordable 
college options to its residents, and because the program is working to 
enhance the number of college going District residents. Simply put, the 
D.C. TAG program levels the playing field by providing District 
residents with the same opportunity that high school graduates around 
the country receive, the ability to pay for college at or near the in-
state tuition rate. In fiscal year 2006, the State Education Office 
provided an average TAG award of $6,393 to more than 4,800 students.
    In the District of Columbia, graduating seniors have a single 
option for public higher education--the University of the District of 
Columbia. UDC is a relatively young institution that celebrated its 
30th anniversary in 2006. While UDC has done an admirable job of 
educating thousands of students every year, a single state school is 
not the solution for every student in the District of Columbia who 
wants to go to college.
    In every state in the nation, students have the option to attend 
multiple public universities and colleges on multiple campuses. For 
example, neighboring Maryland has 14 four-year public university 
campuses and 16 community colleges. State colleges and universities are 
well known for providing quality education at an affordable price. The 
D.C. Tuition Assistance Grant program provides greater opportunities 
for students in the District of Columbia to obtain a college education 
by bridging the gap between the in-state and out-of-state tuition rate 
so that students can attend colleges and universities in other 
jurisdictions at affordable prices. The TAG program provides up to 
$10,000 per academic year--up to a lifetime maximum of $50,000, for 
District residents who have a high school diploma and start college by 
the age of 24. Additional options include:
  --Up to $2,500 per academic year to bridge the gap between in-state 
        and out-of-state tuition at a community college;
  --Up to $2,500 per academic year to attend a historically-black 
        college or university anywhere in the nation; and
  --Up to $2,500 per academic year to attend a private university in 
        the Washington, DC metropolitan area.
    In 1999, prior to the existence of the D.C. TAG program, District 
residents paid an average of $7,890 annually to attend an institution 
of higher education compared to a much more favorable national tuition 
average of $3,215 annually. As such, Congress passed the District of 
Columbia College Access Act (Public Law 106-98) at the urging of the 
District's Congressional Delegate Eleanor Holmes Norton. It is 
important to note that the D.C. TAG program has received a great deal 
of bipartisan support since its inception. To date, including the 
current school year, the program has disbursed nearly $160 million for 
the benefit of over 11,000 D.C. residents.
    Since the inception of the D.C. TAG program in the 2000-2001 school 
year, the number of District of Columbia public school students that go 
on to attend an institution of higher education has doubled. That's a 
phenomenal achievement for a program that's only in its seventh year. 
The characteristics of TAG recipients are as follows:
  --38 percent of D.C. TAG grantees are the first in their family to 
        attend a college or university;
  --67 percent of tuition awards are provided to District of Columbia 
        public school students;
  --79 percent of D.C. TAG students attend public colleges and 
        universities upon receiving a tuition award;
  --over 90 percent of awardees attend college full-time; and
  --68 percent of awards are provided to students with very low or low 
        income levels as defined by the estimated contribution families 
        are expected to make to support their child's educational 
        needs.
    In an effort to increase the graduation rates of students receiving 
the tuition assistance grant, the State Education Office is actively 
communicating with partner colleges and universities to ensure that 
D.C. TAG grantees are receiving the appropriate retention and academic 
services needed to support our students as they work to earn a college 
degree.
    Numbers alone, however, fail to tell the story of the D.C. TAG 
program's success. This is one of those occasions where our grantees or 
their families tell their own stories far better than I ever could. So 
I will share with you the words of Wezlynn Davis, whose daughter Niya 
graduated from North Carolina Central University last year. Ms. Davis 
writes,

    ``We, the Davis family, have been truly blessed by the District of 
Columbia Tuition Assistance Program. I don't know what we would have 
done without it. . . . I hope that the program continues in the future 
and the process won't change much because I have another youngster who 
will be attending college. He wants to be a culinary chef and has his 
mind set on it. . . . Thank you for all you and others are doing to 
make sure our black children succeed. It gives them self worth and a 
sense of pride knowing that they can afford to attend college. I know 
my daughter is happy. She graduated on May 6, 2006, the first . . . of 
my children to do that. I am ecstatic.''

    This is just one example of success as a result of the D.C. TAG 
program.
    The Government of the District of Columbia, like other governments 
across the country, is focused on encouraging as many of its students 
as possible to go to college. Recent research suggests that only 28 
percent of jobs in the District of Columbia belong to Washington, DC 
residents. This is in large part a result of the skills required to 
obtain these jobs.\1\ In 2005 for example, 75 percent of the new jobs 
created in the District of Columbia required at least some post 
secondary education.\2\ In addition, the Washington, DC metropolitan 
region has one of the highest college degree attainment rates in the 
country with over 42 percent of the region's residents having at least 
a bachelor's degree and 20 percent having graduate degrees.\3\ The 
District's students have to be able to successfully compete for jobs in 
this highly educated environment. The D.C. Tuition Assistance Grant is 
a central component of the District's strategy to enhance college 
access and college degree attainment in the District of Columbia.
---------------------------------------------------------------------------
    \1\ Fuller, Stephen S., Ph.D., The District of Columbia Chamber of 
Commerce State of the Business Report 2006, D.C. Chamber of Commerce, 
February 2006.
    \2\ Ibid.
    \3\ Greater Washington Initiative, Internet, http://
www.greaterwashington.org/pdf/RR_2006.pdf, Accessed 29 March 2007, p. 
12.
---------------------------------------------------------------------------
    As a result of the Tuition Assistance Grant, the way of life is 
changing for an entire generation of young people, and I would like to 
call upon this distinguished committee to re-authorize D.C. TAG once 
again for fiscal year 2008 at the funding level requested by the 
President.
    I appreciate the opportunity to testify today, and I look forward 
to answering your questions.

                              Attachment A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                                                            ATTACHMENT B.--NUMBER OF AWARD RECIPIENTS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           2000-2001           2001-2002           2002-2003           2003-2004           2004-2005           2005-2006
                        State                        ------------------------------------------------------------------------------------------------------------------------   Total   Increase
                                                       Public    Private   Public    Private   Public    Private   Public    Private   Public    Private   Public    Private             2000-06
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama.............................................         2  ........         8         1         9         4        16         5        10        10        10        12        87       +20
Arkansas............................................         1  ........         2  ........         2  ........         2  ........         2  ........         1  ........        10  ........
Arizona.............................................         7  ........        15  ........        16  ........        17  ........        20  ........        16  ........        91        +9
California..........................................        14  ........        29  ........        24  ........        32  ........        31  ........        35  ........       165       +21
Colorado............................................         8  ........        19  ........        27  ........        35  ........        40  ........        39  ........       168       +31
Connecticut.........................................         1  ........         3  ........         3  ........         5  ........         3  ........         5  ........        20        +4
Delaware............................................        65  ........       112  ........       134  ........       135  ........       155  ........       171  ........       772      +106
District of Columbia................................  ........       313  ........       451  ........       585  ........       584  ........       592  ........       506     2,525      +193
Florida.............................................        25  ........        44         9        67        14        84        21       101        19       108        21       513      +104
Georgia.............................................         5  ........        10        29        11        65        18        74        19        79        26        73       409       +94
Hawaii..............................................  ........  ........  ........  ........         1  ........  ........  ........         1  ........         1  ........         3        +1
Idaho...............................................  ........  ........  ........  ........  ........  ........         1  ........         1  ........  ........  ........         2  ........
Iowa................................................         8  ........         7  ........        11  ........         8  ........         8  ........         7  ........        49        -1
Illinois............................................         4  ........         2  ........         2  ........         3  ........         3  ........         2  ........        16        -2
Indiana.............................................         3  ........        10  ........        14  ........        19  ........        25  ........        29  ........       100       +26
Kansas..............................................         1  ........         1  ........         2  ........         4  ........         4  ........         2  ........        14        +1
Kentucky............................................         2  ........         3  ........         4  ........         8  ........         9  ........        10  ........        26        +8
Louisiana...........................................         6  ........         4         1         5        10        13        15        25        18        12        14        97       +20
Maine...............................................  ........  ........         1  ........         1  ........  ........  ........  ........  ........         2  ........         4        +2
Massachusetts.......................................         2  ........         8  ........        11  ........         7  ........         7  ........        11  ........        46        +9
Maryland............................................       562        17       827        13       914        31     1,053        27     1,128        13     1,069        18     5,672      +508
Michigan............................................        26  ........        33  ........        38  ........        57  ........        89  ........       115  ........       358       +89
Minnesota...........................................         4  ........         2  ........  ........  ........         1  ........         2  ........         1  ........        10        -3
Missouri............................................        12  ........         2  ........         6  ........         6  ........         2  ........         3  ........        31        -9
Mississippi.........................................  ........  ........         5  ........         6  ........         3  ........         7  ........         4  ........        25        +4
Montana.............................................         1  ........         1  ........         2  ........         4  ........         2  ........         2  ........        12        +1
North Carolina......................................        87  ........       163        29       216       107       346       138       509       161       643       105     2,504      +661
North Dakota........................................  ........  ........         1  ........         2  ........         1  ........         1  ........         1  ........         6        +1
Nebraska............................................  ........  ........         1  ........  ........  ........  ........  ........  ........  ........         1  ........         2        +1
New Hampshire.......................................  ........  ........         2  ........         2  ........         3  ........         4  ........         4  ........        15        +4
New Jersey..........................................        10  ........        16  ........        18  ........        17  ........        27  ........        34  ........       122       +24
New Mexico..........................................         2  ........         2  ........         2  ........         4  ........         2  ........         3  ........        15        +1
Nevada..............................................  ........  ........  ........  ........  ........  ........         2  ........         2  ........         1  ........         5         1
New York............................................        10  ........        17  ........        30  ........        39  ........        41  ........        44  ........       181       +34
Ohio................................................        22  ........        40         1        53         4        63         8        72         6        69         4       342       +51
Oklahoma............................................  ........  ........  ........  ........  ........  ........  ........  ........         5  ........         9  ........        14        +9
Oregon..............................................         1  ........         1  ........         4  ........         4  ........         3  ........         1  ........        14  ........
Pennsylvania........................................       131  ........       186  ........       270  ........       324  ........       335  ........       349  ........     1,595      +218
Rhode Island........................................         1  ........         2  ........         4  ........         3  ........         1  ........         1  ........        12  ........
South Carolina......................................        18  ........        29         2        28        10        39        21        41        23        40        23       274       +45
Tennesee............................................        13  ........        16  ........        29         4        23         5        26         6        39         6       167       +32
Texas...............................................         2  ........         7  ........        23         4        29  ........        41         1        48         1       156       +47
Utah................................................         1  ........         2  ........         1  ........         2  ........         4  ........         4  ........        14        +3
Virginia............................................       397       139       599       172       732       151       787       175       734       171       664       144     4,865      +272
Virgin Islands......................................  ........  ........  ........  ........  ........  ........  ........  ........         1  ........         6  ........         7        +6
Vermont.............................................         7  ........         7  ........        13  ........        22  ........        30  ........        34  ........       113       +27
Washington..........................................         3  ........         4  ........         7  ........        11  ........        14  ........        16  ........        55       +13
Wisconsin...........................................       114  ........        21  ........        33  ........        35  ........        49  ........        64  ........       316       -50
West Virginia.......................................        79  ........        49  ........        61  ........        65  ........        77  ........        80  ........       411        +1
                                                     -------------------------------------------------------------------------------------------------------------------------------------------
      Grand Total...................................     1,657       469     2,313       708     2,838       989     3,350     1,073     3,713     1,099     3,836       927    22,430    +2,637
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                              Attachment C

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Durbin. Thank you very much. Judges Washington and 
King, I direct these questions to you and you can decide 
between you who will respond.
    Budget submissions seek a total of $179.8 million for 
capital improvements and the President's recommendation calls 
for $52.5 million, that's only about 29 percent of what you say 
you need. What capital improvement projects would have to be 
forestalled, delayed, if we're not able to meet your request?

                      D.C. COURTS CAPITAL REQUEST

    Judge Washington. I think I'll try to handle that one, Mr. 
Chairman. The facilities master plan that was developed by the 
courts back in 2002 addresses all of our space needs and 
depends on our renovating and moving services out of the 
Moultrie Courthouse into other court buildings. Then we need to 
restack the Moultrie Courthouse to consolidate the Family Court 
to make sure all the services are located in the same family 
friendly location and that we're providing the breadth of 
services that we have been asked to provide and we, of course, 
want to provide to our citizens.
    A key part of this swing is to get the Court of Appeals out 
of the building to free up 37,000 square feet. Once the 
District of Columbia Court of Appeals is moved into the new 
building, the Superior Court, the trial court, will be able to 
use that space. In theory, the Superior Court can then restack 
and move operations into that vacated space and reconfigure the 
space that is currently where the Family Court is located to 
consolidate the Family Court.
    There are other buildings on our campus that will have to 
absorb some of the other Moultrie operations. So, ultimately, 
what the lack of funding ends up doing to us, is delaying all 
of these projects.
    In fact, those projects are then pushed back in time. 
Projects that are not funded include the Moultrie Courthouse 
renovation. I spoke about the Moultrie Courthouse renovation 
and reorganization and the restacking process and there are a 
number of projects that fall into that category, as you can 
imagine, when you're trying to reconfigure that space.
    In addition we need to move some of our operations, as I 
said, out of the Moultrie Courthouse into Building C, another 
building on our campus in order to consolidate our space and 
make room. That modernization project is not funded and those 
are the two large capital projects that will impact our ability 
to finally reconfigure Moultrie into the kind of Family Court 
and trial court that we want it to be.
    So, in essence the delay is a creating this gap between our 
move, the Court of Appeals move, out of the Moultrie building 
into the new Court of Appeals building and the opportunity that 
the Superior Court will have to configure their operations to 
meet the mandates that have been imposed.
    Senator Durbin. So if you had full funding, what's the time 
line?
    Judge Washington. If we had full funding, I would.
    Senator Durbin. At your request.
    Judge Washington. Yes. If we had the full funding right 
now, I would have to turn to our Administrative Services 
Director. There's a design phase that we have not undergone yet 
that precedes each of these restackings because we have to have 
money to do the design phase.
    Our best estimate is that if we got the funds today for 
these projects we would complete the renovations on our campus 
in 4 years.
    Senator Durbin. And so if you receive the President's 
recommendation, is that enough money for the design phase of 
this project?
    Judge Washington. No. The monies that are in the 
President's recommendation will only cover those costs that are 
associated with the old courthouse and the emergency electrical 
repairs.
    So, the monies for the design of the reconfigured Moultrie 
building are not included in the President's recommendation in 
this budget.
    Senator Durbin. I would like to address the perimeter 
security questions, and you talked about the need for $16 
million for perimeter security enhancements. Could you tell us 
a little bit about that?
    Judge Washington. If I can. This is based on a study by the 
U.S. Marshals Service.
    Let me preface this by saying that we've now moved back out 
onto our campus, through renovation of Building A. We are 
moving services and courtrooms into that facility, and into the 
old courthouse in fall 2008, hopefully, maybe the winter 2009.
    The need to create a perimeter around all of the campus has 
increased because we now will have critical operations in every 
building. The Marshals Service has determined that in order to 
protect, not only the courts, but the people who are going to 
be using our court system, we had to create a perimeter of 
security. We've done it as part of our master plan for 
Judiciary Square, a plan that's been approved both by the 
National Capital Planning Commission and by the Commission of 
Fine Arts.
    It includes security that will protect us from any threat 
from traffic that may be traveling up and down the public 
streets or any other attempts to harm the people who work 
inside the court building.
    That also includes perimeter security for the United States 
Court of Appeals for the Armed Forces, with whom we share space 
on Judiciary Square.
    Senator Durbin. So the marshals have security 
responsibilities for the entire campus as opposed to the 
Federal Protective Service, for example?
    Judge Washington. Yes.

                              FAMILY COURT

    Senator Durbin. Ok, thank you. Judge King, I didn't mean to 
misstate your responsibilities earlier, but when we got 
together it was in establishing the Family Court and there were 
some projections about caseload and productivity that were made 
years ago. Can you give me an update on how that's going?
    Judge King. The caseloads have pretty much remained flat 
and in some cases have gone down a little bit because the city 
agency, the Child and Family Services Agency, is now not 
bringing some cases that were automatically sent to court 
before.
    What I can say is that the level of judicial attention, 
which was very much a discussion at the time of that bill, has 
gone way up with the result that the cases that are coming in 
are very strongly supervised and managed in exactly the way 
that, I think, all of us had in mind at the time of that act. 
It has given us the strength at the judicial level, the 
manpower strength, to handle the cases, with the attention and 
with all of them in the Family Court where they've all been 
consolidated, now in very much the way that, I think, Congress 
intended.
    Senator Durbin. Thank you. Mr. Quander, good to see you 
again. I think we met 5 years ago when I chaired the hearing on 
your nomination. Thank you for your dedication to public 
service.
    The opening of the final unit of the residential Re-entry 
and Sanctions Center is conditioned on receipt of funds 
requested in the 2008 appropriation of $2.1 million. With that 
funding you indicate you can meet the particular needs of the 
female offender population. How are you currently addressing 
those needs?
    Mr. Quander. The design of the unit is to take a special 
segment of the female population that has a chronic history of 
chronic substance abuse coupled with criminogenic factors that 
indicate that that offender poses a severe risk to the public.
    What we're doing now is we're using the drug treatment 
option and supervision options that we have currently 
available, but it's not sufficient to address the needs of this 
special type of offender. The benefits that the Re-entry and 
Sanctions Center allows is that we will have an opportunity for 
28 days to really assess--to really prepare that individual for 
treatment.
    It's almost like we are enhancing our investment in 
substance abuse treatment because a lot of the women have a lot 
of issues that some of the men don't have, child care issues. 
Many of the women have been victims of crimes. There's a lot of 
reasons why they fall victim to substance abuse.
    The contract treatment works better if we can provide a 
road map for the treatment provider as to what some of those 
underlying issues are. We will stand a better chance of getting 
those women through the process successfully and united with 
their families.
    So, the Re-Entry and Sanctions Center serves as a much 
needed bridge, especially for this population that has so many 
other issues than the men, but there's a tremendous need.
    Just yesterday, I was visiting a facility in Northern 
Virginia that actually houses women and their children. It's a 
special facility designed to meet their needs with a lot of 
emphasis in the mental health area, substance abuse, child 
care. It's a wrap around facility. It's that type of approach 
that I think will get us the best results as we invest in the 
future of these offenders because we think that they can make 
it. We know they can, if they're given the proper support and 
the RSC will allow us to give that proper support.
    Senator Durbin. How many persons does the Sanctions and Re-
entry Center presently serve?
    Mr. Quander. Now, we have, I believe four floors that are 
operational. When it's fully operational with the six units, 
we'll be able to treat at least 1,200 people in the center 
throughout the course of the full year.
    We're anticipating that the next unit to come on line will 
be the mental health unit and then subject to the funding for 
2008, we will bring the women on board.
    Senator Durbin. So, 1,200 for the entire year?
    Mr. Quander. For the entire year, once we're fully staffed 
and operational.
    Senator Durbin. Say at this day, what do you think your 
census or population is today?
    Mr. Quander. It is probably in the area of about 80.
    Senator Durbin. What portion of those served are newly 
released parolees?
    Mr. Quander. The vast majority of the individuals, the 
males that are in the facility now are newly released parolees. 
We have four floors that are in operation now.
    One of the four floors is a pretrial services floor. 
Another is a sanctions floor for those individuals who have 
been in the community but have started to slip--who have 
started to fall. The beauty of this program is that it allows 
us to get them before we have to go to court, before we have to 
do any other type of intervention and bringing in another 
party.
    We can get them back into the center, get them readjusted 
and get them refocused on their mission and on their purpose. 
So, it gives us great flexibility without taxing some of our 
partners before it's really time to bring them in.
    Senator Durbin. What proportion of those you serve present 
substance abuse problems?
    Mr. Quander. Seventy percent of the individuals that we see 
on probation, parole, supervised release, for sentencing 
agreements or civil protection orders upon entry into 
supervision are testing positive for substance abuse.
    Our population, as we test, at least 51 percent of the 
individuals that are undergoing consistent testing with the 
agency, have tested at least once, positive, 51 percent, but at 
intake it's close to 70 percent.
    Senator Durbin. I think we talk a lot about recidivism and 
you've been observing a population that is prone to recidivism. 
What do you think poses the greatest challenge there that we 
should be considering? Is there one element that clearly needs 
more attention or more resources?
    Mr. Quander. It's always a tough question, but if I had to 
limit it just to one area, I would have to concentrate on the 
area of substance abuse. The reason I say that is, when you 
talk about maximizing your resources, the research is very 
clear. There is no dispute anymore, but that substance abuse 
treatment really works.
    It has an impact on reducing crime. It has an impact on 
reducing those individuals who are in the criminal justice 
system, but it also has an impact, as we spoke earlier about 
the women, because women have children and if they have 
children and if the mothers are using, they're not providing 
the type of supervision.
    So, those children are essentially guaranteed to come into 
the criminal justice system. If we don't address the problem--
and so that would be the one area that--if I had to limit it to 
just one.
    I think that there should be additional attention and 
resources, and I think you get the best return on your 
investment if we go in that direction.
    Senator Durbin. Your top priority reported here is in 
reducing caseload ratios for community supervision officers and 
I believe this should be replicated if it could be with 
pretrial services agencies.
    Mr. Quander. Yes.
    Senator Durbin. You stress an additional $1.6 million and 
nine FTEs will enable you to lower your PSA officer ratio to 75 
to 1. How does that compare to other jurisdictions in the 
region?
    Mr. Quander. Actually, if we received what is requested in 
the President's budget, that would be a tremendous step in the 
right direction and will allow us to meet our goals. But it is 
still higher than some of the surrounding jurisdictions that 
have a lower case load.
    It is manageable. It was extremely high. We can work with 
the 75 to 1 ratio, but it is higher still than some of the 
surrounding jurisdictions.
    Senator Durbin. Give me a comparison number, pick it from 
the sister jurisdiction as to what the ratio number might be.
    Mr. Quander. 65 to 1 in Montgomery County. I believe in the 
Norfolk, Virginia area, it's as low as 45 to 1.
    Senator Durbin. Thank you. Ms. Buchanan, how much is a 
public defender paid in the District?
    Ms. Buchanan. Our salaries are Federal General salaries; 
attorneys with no experience generally enter at the GS-11, step 
1 rate, which is approximately $55,000, and, based upon 
seniority they can go up to GS-14, step 10.
    Senator Durbin. And the grade 14?
    Ms. Buchanan. Very few staff attorneys remain at PDS long 
enough to attain the GS-14, step 10 staff salary which is 
approximately $120,000.
    Senator Durbin. What kind of luck do you have in recruiting 
attorneys for $55,000 a year?
    Ms. Buchanan. PDS is special, and employment at PDS is 
highly sought after; we average approximately 600 applicants 
for what works out to be six to eight openings per year in 
PDS's Trial Division, our largest group of lawyers. We hire 
once a year in the Trial division. We do that because we train 
the attorneys before they are permitted to handle any cases. 
Every year, we receive many applications from the top students 
at the top law schools across the country.
    So we have not experienced any problem recruiting highly 
qualified and motivated candidates. People do not come for the 
salaries; they come because they're dedicated to PDS's mission 
and to our clients.
    Senator Durbin. And what's the usual tenure of these public 
defenders? How long do they stay at the agency?
    Ms. Buchanan. Staff attorneys' tenure varies widely. We ask 
for a minimum 3-year commitment, but we have attorneys who have 
remained at PDS for as long as 14 or 15 years--those are the 
outliers. I would say that our attorneys stay an average of 5 
to 6 years.
    Senator Durbin. I've been trying to pass a bill here, 
passed it in the Senate Judiciary Committee, for a student loan 
repayment for State and local prosecutors and defenders.
    Ms. Buchanan. Yes.
    Senator Durbin. Is this an issue with your new attorneys?
    Ms. Buchanan. Yes. Many of our attorneys come to PDS 
saddled with heavy debt loads and continue to work at PDS with 
these heavy debt loads. We've been intently following your 
legislation as it would benefit many of our attorneys. The 
District of Columbia has enacted its own student loan repayment 
program and we are trying to have our attorneys become eligible 
for this program.
    Senator Durbin. Are they participating now?
    Ms. Buchanan. No, right now the D.C. Bar Foundation, which 
administers the program, has deemed PDS attorneys to be 
ineligible to receive these benefits primarily because of PDS's 
quirky status as being neither Federal nor State or district. 
Because we are federally funded, the D.C. Bar Foundation 
considers our attorneys ineligible for the program, however, we 
continue to work with the foundation to change this 
determination.
    Just today, I had another conversation with the foundation 
about a different rationale for having our attorneys become 
eligible to participate in that program.
    Senator Durbin. Back in the dark ages when I was a student 
at Georgetown Law School, I can recall the Defender Program in 
the District. It enjoyed a great reputation then, but the 
numbers you just given me of 600 applicants for six jobs is an 
amazing indication.
    Ms. Buchanan. Yes.
    Senator Durbin. Of what a challenging professional 
opportunity you offer.
    Ms. Buchanan. PDS is a wonderful place, and there are 
several of us who have left PDS and returned. I am one. PDS's 
deputy, Peter Krauthamer, and PDS's general counsel, Julia 
Leighton, who are here with me, are others. PDS is a very 
special place. It's hard to leave and it's wonderful coming 
back. I have no regrets.
    Senator Durbin. Great, thank you.
    Ms. Buchanan. Thank you.
    Senator Durbin. Ms. Gist, if you take a look at the 
national average of college graduation for low income minority 
students, it's 47 percent and if you take a look at the D.C. 
TAG experience, the 2000/2001 freshman class, 38 percent 
graduated from college. In the next year D.C. TAG, 2001/2002, 
36 percent graduated. Why do you think there's that disparity?
    Ms. Gist. Well part of the reason is that the national 
average that you're referring to is based on a 6-year 
graduation rate.
    And actually I can update you with some new numbers that we 
have based on more students from the cohorts that we have 
information about who's graduated.
    So, just as an example from the 2000/2001 cohort, we have a 
46-percent graduation rate. So we were.
    Senator Durbin. So, its 6 year to 6 year, is that what 
you're saying?
    Ms. Gist. Well, it's kind of hard for us to compare year to 
year, but it's definitely not more than 6 years because it 
hasn't been 6 years, so, less than 6 years.
    We now know that it's 46 percent for that cohort, right 
now, 41 percent for the 2001/2002 cohort and 40 percent for the 
2002/2003 cohort. So, again, compared to a 6-year rate, we feel 
confident about those graduation rates.
    So, I will also say that we have, even with that, I mean, 
retention has become a very big issue for us. We are a leader 
in the ``Double The Numbers'' initiative in the District of 
Columbia, which is a District-wide effort to focus on college 
going and college graduation and so, for example, we are the 
lead on a sector group that's working with college access 
providers across the District.
    Right, exactly that was the report that kicked it off and 
so retention is a serious priority for us right now.
    Senator Durbin. The process you go through is fairly 
automatic in terms of qualification for assistance and so I'm 
wondering if your agency takes a look at any of these factors 
that lead to information about why 60 percent, or 59 percent, 
fail to graduate.
    I know that you're getting closer to the national average, 
but the national average is disappointing too.
    Ms. Gist. Yes.
    Senator Durbin. So, do you have any anecdotal evidence or 
personal experience with the students that would give some 
guidance?
    Ms. Gist. Well, we definitely have anecdotal evidence. We 
have a lot of anecdotal evidence because we work daily with 
these students and we see what they experience in trying to go 
to college and many times they're coming back because of the 
family situation and they have to come back to work to help 
support their family, just as an example.
    But, I'll also say that we have done a lot to improve our 
data system and our collection of data. So that we can do a 
more sophisticated analysis to help us to target services to 
students, such as--are these financial situations that are 
occurring, are they social? Do they need psychological/social 
types of support to help them stay in school and like I said 
this is a major priority for us right now.
    Senator Durbin. And it goes without saying that those who 
don't finish college, even with your assistance, may end up 
carrying a student debt out of that experience even if they 
don't carry a diploma out of it.
    Ms. Gist. That's true and District students unfortunately 
end up taking a lot of remedial courses their first year and 
that's something that we're focused on right now, too, is 
making sure that all of our students are graduating college 
ready.
    Because what we know is that they end up taking remedial 
courses and so they are paying, essentially, to make up for 
what they didn't get in K-12 and that's just unacceptable.
    So we need to have them graduate from high school, college 
ready, work ready, and college ready, so that when they hit 
college, they're earning credit toward graduation from the 
first day, which right now, most of our students are not doing.
    Senator Durbin. And that's not unique to the District of 
Columbia. In the State of Illinois, about 50 percent of those 
admitted to community colleges are not performing at 12th grade 
level. They spend the first year or two trying to catch up to 
what they should have learned in high school.
    Ms. Gist. Right.
    Senator Durbin. They call themselves college students, but 
they're really trying to become college students, and paying 
college tuition in many places to reach that goal.
    Is there going to be change in the differential between in-
State and out-of-State tuitions at the major schools that you 
provide students for? Maryland and Virginia, I think account 
for almost one-half of the students from the District of 
Columbia. Over the period of this program, has there been a 
change?
    Ms. Gist. Yes, and we've definitely seen the average amount 
that each student gets per year creeping closer and closer to 
the cap which is $10,000 per year. In fact, I believe, I'm not 
sure if we gave you this chart, but we do have a graphic that 
shows the increase in the, like I said, it's pretty dramatic if 
you look at the numbers of students who are now either at the 
cap or close to the cap; thanks, John.
    Senator Durbin. The $50,000 cap?
    Ms. Gist. Right, well the $10,000 per year--right--for the 
maximum. So, for example in 2000/2001, well actually, I'll use 
the second year because the first year was a bit of an outlier.
    But in 2001/2002 school year we had a total of 202 students 
who were at or above the $10,000 a year differential and in the 
past school year, that was 989. So, it has increased and that's 
due largely to the increases in the costs of tuition.
    Senator Durbin. But what we're focusing on is the 
difference between in-State and out-of-State college tuition, 
are we not?
    Ms. Gist. Right.
    Senator Durbin. What I'm asking is whether over the years 
have universities, like the University of Maryland and 
University of Virginia increased that differential between in-
State and out-of-State?
    Ms. Gist. The States tend to, when we're increasing 
tuition, they're more likely to increase the out-of-State 
tuition than they are the in-State tuition for obvious reasons. 
So, yes, that difference has increased.
    Senator Durbin. Let me talk about the total amounts of 
money here. I've been through this before when we created this 
program and I've watched it.
    In the first 4 years of the program, Congress appropriated 
$17 million annually. The President sought the same level in 
fiscal year 2005, but the amount appropriated increased 49 
percent to $25.6 million, and then in 2006, another 30 percent 
increase to $33.2 million. The funding you seek this year is 
double what was provided in each of the first 4 years and it 
concerns me.
    Now, when we put in the appropriations bill to the District 
of Columbia the following language last year, the subcommittee 
remains concerned of significant annual funding increases in 
the brief 2 year span, it was a signal that program costs have 
the potential of growing well beyond the level at which future 
Federal funding may be available or sustainable.
    So to address this concern, the subcommittee directed the 
Mayor and the D.C. State Education Office, which I know you're 
associated with, to work closely with Congress to take steps to 
institute effective cost contained measures and regular reports 
to Congress about the effects of these efforts.
    The subcommittee directed the District to fully explore 
non-Federal sources of additional funds to augment Federal 
investment, so what cost contained measures have you 
instituted?
    Ms. Gist. There are several that we've already instituted 
and then there are many others that we've studied that are much 
more dramatic. We hope that we won't have to institute those.
    The ones we've already instituted include reducing the 
total amount for community college reimbursement, eliminating 
summer school. We no longer pay for summer school, creating 24 
years of age as the maximum for participation in this program 
and establishing 6 years as a maximum amount of time that 
students have from the first semester they're enrolled to 
receive funding.
    So, those are just a few things we've done already. We've 
also seen, Senator, the costs, although they have continued to 
rise, see them begin to level off. While it looks quite 
dramatic that it's now 35 and it was 17 for several years, the 
actual growth has been very, very consistent over those years.
    The reason that the requested appropriation was staying the 
same and then increased so dramatically was because there was 
carryover. So even in the first year, for example, there was 
about $20 million in carryover, but then was able to be used 
and each year we've sort of dipped deeper and deeper into that 
carryover to today where we have very little carryover.
    Senator Durbin. You said that there were some more 
strenuous ideas that you hoped you didn't have to turn to. What 
would they involve?
    Ms. Gist. Yes, those are, you know, we could reduce the 
maximum award from $10,000, but as I've shared with you 
already, we have students at the maximum and I'll remind you 
that what this program does is essentially levels the playing 
field for our students, so our students still have to come up 
with a tuition just like any other student in this State and 
then they also have to come up with their room and board and 
their books and so forth.
    And so, if they're having to come up with their tuition and 
then they're also having to pay anything that's over the cap 
which is--right now--$10,000 then that's just an added burden. 
So if we had to reduce that to $8,000 for example, that would 
affect a significant number of students.
    We've also looked at the possibility of making it a needs 
based program if we had to, make it a merit based program.
    But again, this dramatically changes the intention of the 
program, which was to mimic a State university for the system, 
the way that other students in other States have and a student 
in another State, a student doesn't have to be, demonstrate 
need in order to pay the in-State tuition rate or doesn't have 
to have a certain grade point average (GPA) to pay the in-State 
tuition rate.
    And I'll also just add quickly that we have seen increases, 
the District has committed increased funding to other types of 
programs. So, for example, we overmatched by a 5 to 1 factor, 
the D.C. LEAP Program which is, of course, as you know, a 
Federal program, but we match it 5 to 1 in order to provide 
needs based aid for students and we also, Mayor Fenty has a new 
program in his budget for this year that's focused toward 
adults who are attending school, since these programs don't 
support those residents.
    Senator Durbin. What percentage of the students who are 
assisted by this program are Pell grant eligible?
    Ms. Gist. Sixty-eight percent, as determined by their 
estimated family contribution are very low or low. I'm not sure 
how that connects to Pell, but 68 percent.
    Senator Durbin. Have you managed to realize any savings 
from these changes that you've discussed, cost containment 
measures?
    Ms. Gist. We have, they have not been very dramatic, but 
we've also, in some cases, like the 6-year cap, the 6-year 
maximum and the 24 age, those are longer term. Those are 
savings that we would realize over time.
    Senator Durbin. Now, I want to ask, if I can, if the rest 
of the panel will bear with me, I don't know how interested you 
are in the student assistance program, a couple, just maybe one 
or two more questions.
    By our calculations, it appears that you have currently 
about $7 million in carryover funds going into fiscal year 
2008. Is that about right?
    Ms. Gist. Well, we carried over $9 million from last fiscal 
year, but we received, as you know, in 2007, we received $33 
million and we carried over $9 million, but we've already spent 
about $40 million. So, again, we use that carryover each year. 
So, already this year, we've allocated about, almost $39.5 
million for awards.
    Senator Durbin. You seek $35 million this year, I mean, 
pardon, the next fiscal year, with a carryover of $7 million; 
it appears that $39 million is the figure that you're going to 
deal with again.
    Ms. Gist. Well, we anticipate having very little carryover 
this year, about $3 million. At this point we don't know what 
our carryover will be from 2007 because 2007 isn't over yet.
    Senator Durbin. Your program is authorized for $33 million?
    Ms. Gist. The program was appropriated in 2007 for $33 
million.
    Senator Durbin. Okay.
    Ms. Gist. And that was just due to the continuing 
resolution. We were actually approved for $35.1 million.
    Senator Durbin. Okay, well, we'll work on that and we'll 
work with you on that as well and I thank you all for your 
patience this evening. You're definitely in overtime and it was 
nice of you to be patient and wait for me to come by here and I 
apologize for that.
    That's not something I like to see happen to anybody. 
You're all very busy and have important things to do and this 
is a new subcommittee and I'm trying to learn a lot of things 
about new programs, some that I have been familiar with, but I 
thank you for being here, all of you on the panel.

                     ADDITIONAL COMMITTEE QUESTIONS

    We'll keep the record open for my colleagues. Some 
questions will be submitted to you, if you could respond to 
them in a timely basis it will help us complete our work on the 
appropriations bill.
    [The following questions were not asked at the hearing, but 
were submitted to the District for response subsequent to the 
hearing:]
         Questions Submitted to Chief Judge Eric T. Washington
              Questions Submitted by Senator Sam Brownback

                 DISTRICT OF COLUMBIA COURT OF APPEALS

    Question. Would you please explain your request for IT 
improvements, and what is driving the need for upgrades in that area?
    Answer. Industry standards recommend replacement of computer 
systems (LAN/WAN systems) after five years; the Court of Appeals is 
overdue in meeting that standard, as it installed its current computer 
system in 2001. Significant needs of the court that will be met by the 
acquisition of a new LAN include the following.
Client Workstations/LAN-WAN Servers
    The court's operating system is Windows 2000, which is no longer 
``supported'' by Microsoft. The court plans to upgrade to a VISTA 
operating system, which will enhance security of the system and enable 
the court to obtain continued vendor ``support'' for the operating 
system.
    A new LAN will also enable the court to move from single to dual 
processors, which will ensure the capability and usability of current 
and future software products and prepare the court for imaging and an 
electronic-filing environment. Storage capacity and speed of operation 
will be improved by moving from IDE to SATA hard drives on clients and 
SANS storage systems for file servers and imaging technology.
Switches/Routers
    A new LAN will enhance network performance, increase LAN/WAN 
security, and provide for future growth by moving from 10 mbps hubs to 
100/1000 mbps switches and routers. Increased bandwidth is needed for 
high speed imaging, real-time, internet audio streaming of oral 
arguments in the court to expand accessibility for the public, and to 
provide increased access for continuity of operations in case of a 
disaster. Moreover, upgrading from the current 10 mbps to 100/1000 mbps 
units would provide greater transmission speeds and improved Internet 
access for the judges and staff of the court, and for the public.
Back-up Storage Devices
    A new LAN will enable the court to upgrade its data back-up 
capability by moving from an analog tape back-up to a digital or 
optical back-up system. Such an upgrade will provide increased data 
back-up storage capacity and faster restore speeds.

                      DISTRICT OF COLUMBIA COURTS

    Question. Funding for the Old Courthouse restoration has been 
phased over the past three years. What is the current status of the 
project and what will be financed with the 2008 request?
    Answer. We appreciate the Congress's strong support for this 
project and the President's support for our fiscal year 2008 request. 
The restoration of this historic landmark will return the building to 
its historic use as a courthouse for the people of the District of 
Columbia. Restoration is key to the Judiciary Square Master Plan, an 
urban renewal plan to revitalize Judiciary Square and return it to its 
historic green, park-like setting for public use.
    Construction began in 2006 and is expected to be complete early in 
2009. On May 25, the massive columns of the portico were raised less 
than an inch to permit excavation for the large courtroom that will be 
built underground below the portico.
    The construction contract ($99 million) was financed in fiscal year 
2005-2007. The 2008 request will cover costs that are not part of the 
construction contract, such as removal of hazardous materials, built-in 
furnishings, security, and project reserves.
    Question. What have the D.C. Courts done to address the personal 
services budget shortfall and what impact have these measures had on 
court operations?
    Answer. The gap in the D.C. Courts' personal services budget formed 
by salary and benefit costs increasing faster than appropriations, as 
in all federal agencies. Because the D.C. Courts are a small agency and 
75 percent of our budget is for personal services, these costs have 
risen beyond the Courts' capacity to absorb. Our request for fiscal 
2008 will provide full funding for all authorized staff positions. We 
appreciate the President's support of this request.
    To address this shortfall, the Courts have taken numerous steps to 
limit costs and increase efficiency including the following: severely 
limited hiring; reengineered business processes; given employees 
compensatory time instead of overtime pay; restricted travel and 
training; delayed the 2007 cost of living adjustment; restricted 
purchasing; and requested legislation authorizing the Courts to offer 
buyouts to give us a tool that is available to federal agencies to help 
manage our workforce. We thank Congresswoman Norton for introducing 
legislation last year and hope it will be enacted during the 110th 
Congress.
    The Courts currently have a 14 percent non-judicial vacancy rate, 
which we cannot sustain without severe negative consequences on the 
administration of justice in the District. One example of impact on 
court operations is in our Civil Division, where, due to the staffing 
shortage, docketing has been delayed. This means that documents filed 
with the court are not recorded for several days. The Courts' staff is 
working very hard, in difficult circumstances to maintain the best 
possible service to the public, under the circumstances.
    Question. Please discuss the D.C. Courts' capital budget and plans 
for facilities.
    Answer. The D.C. Courts manage and maintain over one million gross 
square feet of space in five buildings in Judiciary Square. Our 
facilities plans focus on renovation of the Old Courthouse for the 
Court of Appeals to increase available space in the Moultrie Courthouse 
and consolidation of the Family Court in the Moultrie Courthouse, which 
necessitates moving support and operational functions out of Moultrie 
and reorganizing and relocating those operations that will remain.
    Building C is the next building to be renovated. It will house the 
Information Technology Division, one of the divisions scheduled to move 
out of the Moultrie Courthouse. We must bring other court buildings up 
to meet current health and safety codes. Of particular concern is the 
electrical system in the Moultrie Courthouse, which poses serious 
safety risks to workers. The Moultrie cellblock, which holds hundreds 
of prisoners each day, also needs to be brought up to current 
standards. A study detailing the work that needs to be done in the 
cellblock has been conducted.
    Question. What are the D.C. Courts doing to ensure that the public 
can easily access court services and to provide accountability to the 
community?
    Answer. The Courts' Strategic Plan guides our efforts to enhance 
access and accountability to the public.
Access
    The D.C. Courts have implemented several initiatives to enhance 
public access to the Courts, including the following:
  --The Court of Appeals Education Outreach Initiative is bringing oral 
        arguments to the community in D.C. law schools;
  --The Court of Appeals provides on-line access to oral arguments in 
        the courthouse;
  --In cooperation with the D.C. Bar and community organizations, the 
        Courts have several self-help centers to assist litigants who 
        do not have attorneys. For example, we have centers in Family 
        Court, Landlord Tenant, and Small Claims;
  --The Superior Court has implemented e-filing in civil cases to make 
        it easier to bring a case to court;
  --The Courts recently opened a Drop-In Center in Southeast to provide 
        community-based services to juveniles on probation and their 
        families;
  --Judicial officers in the Community Courts judges regularly meet in 
        the community with groups such as Advisory Neighborhood 
        Commissions; and
  --The Courts' award-winning website provides extensive information on 
        the courts, including contact information, filing procedures, 
        forms, and legal service providers in the community.
Accountability
    The Joint Committee has adopted 13 Courtwide Performance Measures 
to enhance accountability to the public. The measures cover access to 
court facilities and services, case processing time, treatment of 
litigants, jury management, fiscal accountability, and facilities 
management. We are currently gathering baseline data and establishing 
benchmarks for the measures and plan to issue routine performance 
reports to the public.

                          SUBCOMMITTEE RECESS

    Senator Durbin. So this meeting of the subcommittee will 
stand in recess.
    [Whereupon, at 6 p.m., Wednesday, May 2, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
